<html>
<title> - STRENGTHENING HEAD START FOR CURRENT AND FUTURE GENERATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                      STRENGTHENING HEAD START FOR
                     CURRENT AND FUTURE GENERATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, OCTOBER 7, 2015

                               __________

                           Serial No. 114-29

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                               ____________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
96-820 PDF                      WASHINGTON : 2016                          
                
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>  
              
                
                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 7, 2015..................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Biel, Dr. Matthew, MD, MSC, Division Chief, Child and 
      Adolescent Psychiatry, Georgetown University, Washington, 
      DC.........................................................    12
        Prepared statement of....................................    15
    Mead, Ms. Sara, Partner, Bellwether Education Partners, 
      Washington, DC.............................................    17
        Prepared statement of....................................    19
    Nolan, Mr. Timothy M., PH.D., Chief Executive Officer and 
      Executive Director, National Centers for Learning 
      Excellence, Inc., Waukesha, WI.............................     7
        Prepared statement of....................................     9
    Sanchez Fuentes, Ms. Yvette, President, National Alliance for 
      Hispanic Families, Gaithersburg, MD........................    23
        Prepared statement of....................................    25

Additional Submissions:
    Walberg, Hon. Tim, a Representative in Congress from the 
      State of Michigan:
        Letter from Michigan Head Start Association..............    35
    Vinci, Ms. Yasmina, National Head Start Association:
        Prepared statement of....................................    52
    Mr. Nolan:
        Four Points in Time: Defining the Success of Our Nation's 
          Head Start Investment..................................    70
        Article: Quality Early Childhood Education: Enduring 
          Benefits...............................................    74

 
                      STRENGTHENING HEAD START FOR
                     CURRENT AND FUTURE GENERATIONS

                              ----------                              


                       Wednesday, October 7, 2015

                       House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in Room 
HVC-210, Capitol Visitor Center, Hon. John Kline [chairman of 
the committee] presiding.
    Present: Representatives Kline, Foxx, Roe, Walberg, Salmon, 
Guthrie, Rokita, Heck, Brat, Carter, Bishop, Grothman, Curbelo, 
Stefanik, Allen, Scott, Hinojosa, Grijalva, Courtney, Fudge, 
Polis, Bonamici, Jeffries, Clark, Adams, and DeSaulnier.
    Staff Present: Lauren Aronson, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Kathlyn 
Ehl, Professional Staff Member; Nancy Locke, Chief Clerk; 
Dominique McKay, Deputy Press Secretary; Brian Newell, 
Communications Director; Krisann Pearce, General Counsel; Alex 
Ricci, Legislative Assistant; Mandy Schaumburg, Education 
Deputy Director and Senior Counsel; Alissa Strawcutter, Deputy 
Clerk; Juliane Sullivan, Staff Director; Sheariah Yousefi, 
Staff Assistant; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Austin Barbera, Minority Staff Assistant; Denise 
Forte, Minority Staff Director; Tina Hone, Minority Education 
Policy Director and Associate General Counsel; Brian Kennedy, 
Minority General Counsel; Kevin McDermott, Minority Senior 
Labor Policy Advisor; Alexander Payne, Minority Education 
Policy Advisor; Michael Taylor, Minority Education Policy 
Fellow; and Arika Trim, Minority Press Secretary.
    Chairman Kline. A quorum being present, the Committee on 
Education and the Workforce will come to order.
    Good morning, everyone. Having a hearing here in these 
quarters is still an adventure for some of us. I suspect that 
some of my colleagues are wandering around over in the Rayburn 
House Office Building even now.
    Well, this year marks the 50th anniversary of Head Start, a 
program that plays an important role in the lives of many 
children and families. Head Start was designed to offer 
comprehensive services to 3- and 4-year-old children from low-
income families so they could start school on a level playing 
field with their peers. What began as a summer school program 
has grown into a multibillion-dollar effort, serving roughly 1 
million children at approximately 1,600 centers across the 
country.
    Today, Head Start is one of the largest, most significant 
investments in early childhood education and development, both 
in the number of children being served and taxpayer dollars 
being spent. We know a great education can be the great 
equalizer, but we also know some children have a tough time 
adapting to the pressures of school, and that can be especially 
true for children living in poverty. Without the proper 
support, these students are more likely to fall behind in 
school and to fall through the cracks later in life.
    Helping these children succeed in the classroom is a 
priority that has stretched across party lines for decades, and 
that has been reflected in the longstanding bipartisan support 
for Head Start. It's an important program, but it's also a 
program that faces a number of challenges.
    The most glaring example is the continued concern that Head 
Start isn't providing children with long-term results. A 2010 
study by the Obama administration found that the gains children 
receive in Head Start are largely gone by the time they reach 
the first grade. A follow-up study tracked the same children 
through the third grade and concluded, quote: ``By the end of 
third grade there were very few impacts in any of the four 
domains of cognitive, social-emotional, health, and parenting 
practices. The few impacts that were found did not show a clear 
pattern of favorable or unfavorable impacts for children,'' 
close quote.
    As policymakers, we have to answer a number of important 
questions. How do we do better for both current and future 
generations? How do we ensure Head Start provides taxpayers a 
good return on their investment? How do we ensure Head Start 
delivers the long-term positive impact these vulnerable 
children desperately need?
    To help answer these questions, the committee earlier this 
year urged the public to submit ideas for reforming the 
program. At the same time, we outlined a number of key 
principles for reauthorizing the Head Start Act, such as 
reducing unnecessary regulatory burdens, encouraging local 
innovation, and enhancing parental engagement. We asked 
stakeholders and concerned citizens to tell us how we can turn 
these principles into a responsible legislative proposal.
    Little did we know that as we were trying to strengthen 
Head Start through the legislative process, the administration 
was crafting a scheme to fundamentally transform Head Start 
through the regulatory process. No doubt we will discuss in 
greater detail the pros and cons of the administration's 
regulatory proposal.
    However, we should all be deeply troubled by what are 
expected to be very harsh consequences if this proposal is 
implemented, including 126,000 fewer Head Start slots and 9,000 
fewer instructors. I am pleased the administration recognizes 
the need to improve Head Start, but I strongly urge Secretary 
Burwell to work with us on that effort through the 
reauthorization process. By working toward a legislative 
solution, I am confident we can provide low-income children the 
strong head start they deserve.
    I want to thank our witnesses for being a part of that 
effort as well, and I look forward to your testimony.
    With that, I will now yield to Ranking Member Bobby Scott 
for his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman 
                Committee on Education and the Workforce

    Good morning. This year marks the 50th anniversary of Head Start, a 
program that plays an important role in the lives of many children and 
families. Head Start was designed to offer comprehensive services to 
three- and four-year-old children from low-income families so they 
could start school on a level playing field with their peers. What 
began as a summer school program has grown into a multi-billion dollar 
effort serving roughly one million children at approximately 1,600 
centers across the country.
    Today Head Start is one of the largest, most significant 
investments in early childhood education and development, both in the 
number of children being served and taxpayer dollars being spent. We 
know a great education can be the great equalizer. But we also know 
some children have a tough time adapting to the pressures of school, 
and that can be especially true for children living in poverty. Without 
the proper support, these students are more likely to fall behind in 
school and to fall through the cracks later in life.
    Helping these children succeed in the classroom is a priority that 
has stretched across party lines for decades, and that has been 
reflected in the long-standing, bipartisan support for Head Start. It's 
an important program, but it's also a program that faces a number of 
challenges.
    The most glaring example is the continued concern that Head Start 
isn't providing children with long-term results. A 2010 study by the 
Obama administration found that the gains children receive in Head 
Start are largely gone by the time they reach the first grade. A 
follow-up study tracked the same children through the third grade and 
concluded:
    ``By the end of third grade there were very few impacts . . . in 
any of the four domains of cognitive, social-emotional, health, and 
parenting practices. The few impacts that were found did not show a 
clear pattern of favorable or unfavorable impacts for children.''
    As policymakers, we have to answer a number of important questions. 
How do we do better for both current and future generations? How do we 
ensure Head Start provides taxpayers a good return on their investment? 
How do we ensure Head Start delivers the long-term, positive impact 
these vulnerable children desperately need?
    To help answer these questions, the committee earlier this year 
urged the public to submit ideas for reforming the program. At the same 
time, we outlined a number of key principles for reauthorizing the Head 
Start Act, such as reducing unnecessary regulatory burdens, encouraging 
local innovation, and enhancing parental engagement. We asked 
stakeholders and concerned citizens to tell us how we can turn these 
principles into a responsible legislative proposal.
    Little did we know that as we were trying to strengthen Head Start 
through the legislative process, the administration was crafting a 
scheme to fundamentally transform Head Start through the regulatory 
process. No doubt we will discuss in greater detail the pros and cons 
of the administration's regulatory proposal. However, we should all be 
deeply troubled by what are expected to be very harsh consequences if 
this proposal is implemented, including 126,000 fewer Head Start slots 
and 9,000 fewer instructors.
    I am pleased the administration recognizes the need to improve Head 
Start, but I strongly urge Secretary Burwell to work with us on that 
effort through the reauthorization process. By working toward a 
legislative solution, I am confident we can provide low-income children 
the strong head start they deserve. I want to thank our witnesses for 
being a part of that effort as well, and I look forward to your 
testimony.
    With that, I will now recognize Ranking Member Bobby Scott for his 
opening remarks.
                                 ______
                                 
    Mr. Scott. Thank you, Mr. Chairman, and I thank you and the 
panelists that have come to our committee hearing today, and I 
look forward to their testimony.
    Today's hearing focuses on Head Start, a program whose 
mission is to promote school readiness of young children from 
low-income families. The program is unique from other early 
learning efforts in that it works to address infant and toddler 
emotional development through a two-generation approach. Not 
only does Head Start and its companion, Early Head Start, serve 
children from birth to 5, but also these children's parents, 
through parenting support, goal setting, and assistance in 
assessing comprehensive services.
    This two-generation structure that assists families in 
health and well-being efforts assists also in accessing other 
assistance programs, and promoting a nurturing home environment 
is the reason why the Department of Health and Human Services 
operates Head Start and not the Department of Education.
    The importance of high-quality early learning opportunities 
cannot be overstated. The achievement gap starts as early as 9 
months old when babies from low-income families show a 
significant difference in cognitive skill function than those 
born in high-income families. That difference contributes to 
the 30-million word gap, which references the difference in 
number of words an infant from a low-income families will hear 
by age 3 when compared to infants in high-income families. The 
gap continues into the K through 12 system and is evident 
through differences in State test scores, SAT scores, college 
attendance, graduation rates, and even employment rates. In 
other words, if we are serious about closing the achievement 
gap, we must start early.
    Quality Head Start programs eliminate the gap that exists 
in kindergarten between low-income toddlers and toddlers from 
more affluent families. Long-term benefits from early childhood 
learning opportunities like Head Start are also well 
documented. Not only do high-quality early learning programs 
produce academic results, they produce personal and 
professional results that last over a person's lifetime.
    Early childhood education helps close not only the 
achievement gap, but the employment and income gaps. Decades of 
research shows that properly nurturing children in the first 5 
years of life through high-quality programs like Head Start is 
instrumental in supporting enhanced brain development, 
cognitive function, emotional and physical health, but all too 
often low-income families lack access to high-quality 
affordable early childhood education, and these children tend 
to fall behind.
    We know that children who don't participate in high-quality 
early learning programs are more likely to have weaker 
educational outcomes, lower lifetime earnings, increased 
involvement in special education services and the criminal 
justice system. The cost to society can be quantified. Every 
dollar we spend can save up to $7 later on.
    Just two programs provide the bulk of the Federal role in 
early education, the Head Start program and the Child Care and 
Development Block Grant. Unfortunately, because of limited 
funding, too few children have access to these programs. This 
unmet need continues to grow. Less than half of eligible 
children have access to Head Start, and only 5 percent of 
eligible students have access to Early Head Start.
    We have decades of evidence that investing in early 
learning programs like Head Start works, and it's time to 
increase the investments in early learning programs, not just 
Head Start, but Early Head Start, childcare partnerships, Child 
Care Development Block Grants, Preschool Development Block 
Grants, home visiting programs, and IDEA Part C.
    We must ensure that we are giving all children a chance to 
succeed. The only way to ensure that all children have an 
opportunity is to improve quality and lyrobust fund early 
childhood opportunities. So I thank our panelists for coming 
and I look forward to their testimony. And yield back the 
balance of my time.
    [The statement of Mr. Scott follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Thank you Chairman Kline, and thank you to the panelists for coming 
to this Committee hearing today. I look forward to your testimonies.
    Today's hearing focuses on Head Start, a program with an 
exceptional mission to promote the school readiness of young children 
from low-income families. The program is unique from other early 
learning efforts in that it works to address infant and toddler 
emotional development through a two generation approach. Not only does 
Head Start, and its companion, Early Head Start, serve children from 
birth through age five, but also those children's parents through 
parenting support, goal setting, and assistance in accessing 
comprehensive services.
    The importance of high-quality, early learning opportunities cannot 
be overstated. The achievement gap starts as early as nine months old, 
when babies from low-income families show a significant difference in 
cognitive skill function than those born into high-income families. 
That difference contributes to the 30 million word gap, which 
references the difference in the number of words an infant from a low-
income family will hear by age three compared to an infant from a high-
income family. The gap continues into the K-12 system and is evident 
through the difference in state test scores, SAT scores, college 
attendance and graduation rates, and employment rates. In other words, 
if we are serious about closing the achievement gap, we must start 
early.
    Quality Head Start programs eliminate the gap that exists in 
kindergarten between low-income toddlers and toddlers from more 
affluent families.
    The long-term benefits of early childhood education programs, like 
Head Start, are also well-documented. Not only do high-quality, early 
learning programs produce academic results, they produce personal and 
professional results that last over a person's lifetime.
    Early childhood education helps close not only the achievement gap, 
but the employment and income gaps. Decades of research shows that 
properly nurturing children in the first five years of life through 
high-quality programs like Head Start is instrumental to supporting 
enhanced brain development, cognitive functioning, and emotional and 
physical health. But all too often, low-income families lack access to 
high-quality, affordable early childhood education, and these children 
tend to fall behind. We know that children who don't participate in 
high-quality, early education programs are more likely to have weaker 
educational outcomes, lower lifetime earnings, and increased 
involvement in special education services and the criminal justice 
system. But the cost to society can be quantified. Every dollar we 
spend today on high quality, early learning programs can save us up to 
$7 later on.
    Just two programs provide for the bulk of the federal role in early 
education: the Head Start Program and the Child Care and Development 
Block Grant. Unfortunately, because of limited federal funding, too few 
young children have access. This unmet need continues to grow - less 
than half of eligible children have access to Head Start and only five 
percent of eligible children have access to Early Head Start. We have 
decades of evidence that shows investing in early learning programs 
like Head Start works. It is time to increase investments in early 
learning programs - not just Head Start but Early Head Start-Child Care 
Partnerships, Child Care Development Block Grants, Preschool 
Development Grants, home visiting programs, and IDEA Part C. We must 
ensure that we are giving ALL children the chance to succeed. The only 
way to ensure all children have that opportunity is to improve quality 
and robustly fund those programs.
    Thank you again to our witnesses for coming - I look forward to 
hearing from you all today.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    Pursuant to Committee Rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing be 
submitted for the official hearing record.
    Chairman Kline. It is now my pleasure to introduce our 
distinguished witnesses.
    Dr. Tim Nolan is executive director for the National 
Centers for Learning Excellence, Inc., a Head Start grantee in 
Waukesha, Wisconsin. In this role, he oversees over 330 Head 
Start and Early Head Start slots. Dr. Nolan also is co-chair of 
the Wisconsin Head Start Association's Advocacy Work Group.
    Dr. Matthew Biel serves as director of child and adolescent 
psychiatry at Georgetown University Medical Center and as the 
assistant professor of clinical psychiatry at Georgetown 
University School of Medicine here in Washington, D.C. Dr. 
Biel's work focuses on child development, trauma and 
resilience, mood and anxiety disorders, autism spectrum 
disorders, and psychiatric care of children with medical 
illnesses.
    Dr. Biel has published extensively on access to mental 
health care for underserved populations, trauma and resilience, 
and family engagement. Very busy man.
    Sara Mead is a partner in the Policy and Thought Leadership 
Practice with Bellwether Education Partners here in Washington, 
D.C. Ms. Mead has written and conducted several policy analyses 
on early childhood education, charter schools, teacher quality, 
and State and Federal education policy issues.
    Yvette Sanchez Fuentes is the president of the National 
Alliance for Hispanic Families in Gaithersburg, Maryland. In 
this position, Ms. Sanchez Fuentes guides the Alliance's 
research programs and public policies in order to better serve 
Hispanic communities in need. Prior to joining the Alliance, 
Ms. Sanchez Fuentes served as director for the Office of Head 
Start in the Department of Health and Human Services from 2009 
to 2013.
    I will now ask our witnesses to stand and to raise your 
right hand.
    [Witnesses sworn.]
    Chairman Kline. Let the record reflect the witnesses 
answered in the affirmative. Please be seated.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system. We allow 5 minutes 
for each witness to provide testimony. When you begin, the 
light in front of you will turn green. When 1 minute is left, 
the light will turn yellow, and at the 5-minute mark, the light 
will turn red, and you should wrap up your testimony. And here 
in this very fancy hearing room, you actually have a clock in 
front of you. You can watch that wind down as well. Don't get 
too fascinated with it.
    I loathe to gavel down any witness during their opening 
testimony, but I would ask you, when you see that red light, to 
please move very quickly to wrapping up so that we can get on 
with the rest of the hearing and my colleagues can ask 
questions. All of us are restricted to the 5-minute rule as 
well.
    Okay. I think we're ready to get started. Dr. Nolan, you're 
recognized.

   TESTIMONY OF DR. TIMOTHY M. NOLAN, PH.D., CHIEF EXECUTIVE 
  OFFICER & EXECUTIVE DIRECTOR, NATIONAL CENTERS FOR LEARNING 
             EXCELLENCE, INC., WAUKESHA, WISCONSIN

    Mr. Nolan. Good morning, Chairman Kline, Ranking Member 
Scott, and members of the committee. Thank you for inviting me 
to provide testimony this morning on the very important topic 
of this hearing.
    2015 marks the 50th anniversary of Head Start creating 
opportunities for at-risk children and families. As of today, 
10 percent of all Americans have now attended Head Start, 
including such notables as Darren Walker, president of the Ford 
Foundation, and the Honorable Sylvia Burwell, Secretary of 
Health and Human Services. This topic could not be more 
important as we look forward to shaping the future.
    I'm a Head Start director here to share my thoughts and 
observations based upon extensive experience. I'm a local 
program director, a psychologist by training, a State national 
leader, a consultant, and an author.
    I first showed up for work in my Head Start program on 
September 1, 1968. I arrived with a sense of curiosity and awe 
about Head Start and the possibilities that it presented for 
the future. Today, 46 years later, I still arrive at work 
feeling the same sense of possibility. We must work together to 
preserve and deepen this unique national capability.
    Head Start was created in `64 and launched in `65 as an 
intervention program. Those invited to the table to shape the 
program were physicians and psychologists. There was not an 
educator among them. Head Start has always been an intervention 
program that would include but not be limited to cognitive 
learning gains.
    To accomplish this, we deal with the whole child, 
nutrition, medical and dental health, mental health, 
interpersonal skills development, and the several domains of 
cognitive development. Young children simply cannot learn if 
their teeth hurt, if they are hungry, or if they are regularly 
absent because of unstable housing or family challenges.
    Only the most needy are served by Head Start. We enroll the 
children others too often reject, suspend, or expel. We enroll 
the family, not just their child, identifying the needs and 
goals of the family and working regularly with them throughout 
the year in order to help them succeed in achieving their 
goals.
    In my agency, we partner with the Medical College of 
Wisconsin and the Wisconsin Children's Hospital, who provide 
weekly mental health consultation services to my staff. Poverty 
has a major impact upon mental health in both the enrolled 
child and their parent.
    Head Start programs partner with public schools. In my 
agency, we have 107 4-year-olds with a half-day of Head Start, 
plus a school-funded half-day of 4-year-old kindergarten. We 
also provide leadership locally in this effort, including 
teacher training.
    We individualize instruction in concert with parent input, 
assuring that the parent is a key part of this process. Parents 
are their child's primary teacher, and we have high 
expectations of parents. We support their development. This 
family-centric approach is not evidenced by other public 
entities serving young children at risk.
    In 1991, in an effort to share innovative best practices, I 
wrote a thought piece titled ``What Really Makes Head Start 
Work.'' In it, I identified a secret to Head Start's success 
based upon my experience and extensive observation. We create 
what we call compassionate partnerships between a Head Start 
staff member and a parent or guardian on behalf of their child. 
These relationships are based upon respect, trust, and a focus 
upon the child. Hundreds of thousands of individualized 
compassionate partnerships are created each year across the 
Head Start world.
    As I complete my thoughts on strengthening Head Start for 
current and future generations, several thoughts come to mind. 
You can mandate compliance. You cannot mandate excellence. We 
must achieve excellence, and we know how to do this.
    We should not seek to make Head Start more like the public 
schools, but to make the public schools more like Head Start. 
Involved parents, create compassionate partnerships between 
teachers and parents, don't send Head Start eligible 4-year-old 
children into public school kindergarten instead of Head Start 
when they need a full range of intervention services 
unavailable in practically every LEA. Our local schools love 
having us work with the children most in need in their 
district. We love it too.
    Innovation is in our DNA. Standardization kills creativity. 
Head Start programs annually study their marketplace through a 
community needs assessment and adjust services accordingly. 
Don't allow one-size-fits-all program designs. We want to 
continue to deliver upon the promise that every child can 
succeed. I look forward to working with the committee on this.
    Thank you.
    [The testimony of Mr. Nolan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you, sir.
    Dr. Biel, you're recognized.

 TESTIMONY OF DR. MATTHEW BIEL, MD, MSC, DIVISION CHIEF, CHILD 
 AND ADOLESCENT PSYCHIATRY, GEORGETOWN UNIVERSITY, WASHINGTON, 
                      DISTRICT OF COLUMBIA

    Dr. Biel. Good morning, Chairman Kline, Ranking Member 
Scott, members of the committee, thank you very much for the 
opportunity to--
    Chairman Kline. Microphone. Check your microphone, please.
    Dr. Biel. Thank you.
    Chairman Kline. There you go.
    Dr. Biel. I am very grateful for the opportunity to join 
today's hearing. Thank you.
    In my clinical work caring for children and families, and 
in my research, I focus on identifying strategies to build 
resilience and enhance childhood outcomes in the face of 
adversity. Converging evidence from neuroscience research 
identifies the infant, toddler, and preschool years as a time 
of great promise and also of great vulnerability. Experiences 
in the first 5 years of life, both positive and negative, have 
critical effects on outcomes across the lifespan. Early 
childhood truly sets the course for physical and mental 
wellbeing or dysfunction.
    The building blocks for successful early development 
include an environment that provides basic resources and 
capable care from adult caregivers. Nurturing relationships 
with adults stimulate brain development beginning in infancy, 
creating the neurological foundations for health, learning, and 
positive social interactions.
    However, early exposure to toxic stressors, such as extreme 
poverty, abuse or neglect, or living with a parent with mental 
illness or substance abuse, disrupts developing brain 
architecture. Children who have not received appropriate 
nurturance and stimulation in the first 5 years are already 
significantly disadvantaged. They are likely to have less 
emotional stability, greater risk for physical health problems, 
and more ground to make up in academic readiness. The deck is 
truly stacked against them before their first day of 
kindergarten.
    Experiencing severe adversity in early childhood may be the 
single most modifiable risk factor for future problems, 
including obesity, diabetes, depression, addiction, school 
failure, lost productivity, and incarceration. As you know, 
these are among the most pernicious and costly problems that 
our society faces, and science tells us that they often have 
their origins in early childhood.
    Meaningful interventions to reduce the damage caused by 
early adversity can produce significant benefits for society, 
including increasing individuals' capacities to learn and earn, 
lowering crime rates, saving spending on special education and 
social safety nets, and reducing the cost of common and 
expensive chronic health conditions.
    Many communities do not have well-coordinated resources to 
help families and children buffer the effects of adversity. Too 
often, efforts to identify vulnerable children in one sector 
ignore parallel efforts in another sector.
    This fragmented approach is exacerbated by structural 
barriers that separate service delivery systems in the domains 
of physical health, mental health, and early childhood 
education. These artificial silos persist despite glaring 
evidence from the scientific literature that child development 
observes no such separation. Children living in highly stressed 
environments struggle in ways that simultaneously impact 
learning, physical health, and emotional stability.
    The good news. A number of clearly effective interventions 
to prevent and ameliorate the impact of toxic stress in young 
lives have been developed and are deliverable in Head Start. 
Nationwide, there is a great need to effectively integrate 
evidence-based strategies in order to limit the harmful effects 
of toxic stress and to create buffers for young children and 
their families.
    The early childhood educational setting, like Early Head 
Start and Head Start, is an ideal arena for such interventions. 
Early childhood brain development predicts later social 
success, psychological health, and academic achievement. The 
capacities for self-control, for positive social interactions, 
emotional stability, paying attention, following instructions, 
all crucial skills for functioning in school and in the 
community, are brain-based capacities that have to be mastered 
in early childhood. Delays in these areas are readily relevant 
in the early childhood education setting and can be corrected 
through intervention.
    High-quality Head Start programming, enriched by proven 
intervention strategies, can have an immensely positive impact 
by helping children to catch up on these crucial skills before 
it is too late.
    Based upon my work and the work of my colleagues, I submit 
four recommendations to this committee in assessing Head Start 
and other similar programs under your jurisdiction.
    One, Head Start providers require training to equip them to 
identify children who may be experiencing toxic stress and to 
implement effective techniques to respond to these difficulties 
within the classroom. Early childhood providers receive 
limiting training in understanding and responding to social and 
emotional challenges facing their students. Enhanced 
professional development in these areas should be a priority.
    Two, evidence-based interventions to promote social and 
emotional health should be supported across early childhood 
educational settings, including Head Start. Initiatives 
deserving support include in-school clinical consultation from 
mental health professionals, as well as teacher-delivered 
interventions that support the development of brain-based 
skills that are crucial to social and academic competence.
    Three, efforts to enhance early childhood outcomes require 
effective coordination and integration. We need local 
approaches that effectively identify community needs, unify 
available programs and resources, and address gaps in 
programming with high-quality evidence-based approaches. The 
challenges of early childhood vulnerability require holistic, 
community-based strategies.
    Four, while Head Start providers are important contributors 
to a child's health and development, the family is the first 
and most consistent influence. Interventions that do not engage 
the family are destined to be less effective. To truly improve 
child outcomes, it is critical to enlist families in the 
educational enterprise taking place in early childhood centers, 
to include families in their children's educations, and to 
effectively collaborate with other community resources that are 
available to support families' diverse needs. Interventions 
that effectively include families in early childhood education 
deserve additional development and support.
    In closing, I recommend specific support for provider 
training in understanding and addressing emotional and 
behavioral concerns in young children, high-quality behavioral 
health strategies to support early learning environments, 
integration rather than siloization of programming efforts, and 
special education to strengthening families through engagement 
efforts emerging from early childhood educational settings.
    Thank you very much for your time and consideration.
    [The testimony of Dr. Biel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you, sir.
    Ms. Mead, you're recognized.

   TESTIMONY OF MS. SARA MEAD, PARTNER, BELLWETHER EDUCATION 
           PARTNERS, WASHINGTON, DISTRICT OF COLUMBIA

    Ms. Mead. Good morning, and thank you for the opportunity 
to speak with you this morning. My name is Sara Mead, and I'm a 
partner with Bellwether Education Partners, a nonprofit that 
helps education organizations improve results for high-need 
students. I conduct research on Head Start and other early 
childhood policies and advise foundations, advocacy 
organizations, and others, including Head Start grantees, 
working to improve early learning.
    Serving nearly a million children, Head Start plays a 
crucial role in our early childhood system and in improving 
outcomes for children in poverty. Children in poverty, as 
you've heard this morning, are more likely to experience trauma 
and toxic stress, have less access to learning experiences, and 
hear 30 million fewer words by age 3 than affluent children. 
Achievement gaps for disadvantaged youngsters emerge as early 
as 9 months in age, and by the time they enter kindergarten 
they are already far behind.
    Given these challenges, all children in poverty need access 
to high-quality early learning programs, including Head Start 
and State or locally funded pre-K, to enable them to enter 
school ready to succeed.
    Research, including the federally funded Head Start Impact 
Study and FACES survey, show that Head Start improves 
children's school readiness at kindergarten entry. Although 
impacts on test scores decline through the elementary grades, 
longer-term studies which followed children into adulthood show 
that Head Start alumni are more likely to graduate high school 
and have better adult outcomes than similar children who did 
not attend.
    Further analysis of Impact Study data also finds that Head 
Start produces significant and sustained learning gains 
compared to no preschool at all--in other words, Head Start 
works--but its results, on average, do not match those of the 
highest-quality publicly funded pre-K programs, such as those 
in New Jersey, Oklahoma, and Boston. Further, Head Start 
results vary widely across centers and programs, as much as or 
more than those of K-12 public schools.
    The key question then is not whether Head Start works, but 
how to enable all Head Start grantees to match the results of 
the best Head Start and pre-K programs. The bipartisan 2007 
reauthorization took crucial steps to improve quality in 
outcomes in Head Start. As a result of these changes, 71 
percent of Head Start preschool teachers now have at least a 
bachelor's degree. Designation renewal, which requires 
identified grantees to compete to retain their grants, has led 
to the replacement of low-performing grantees and spurred 
others to improve their quality. The quality of teaching in 
Head Start classrooms is also improving.
    Despite this progress, however, additional reforms are 
needed. Six issues are particularly important.
    First, supporting quality teaching. Preschools that produce 
strong sustained learning gains employ teachers with bachelor's 
degrees and training in early childhood, provide high-quality 
professional development, and pay preschool teachers the same 
as K-12 teachers. In contrast, one in four Head Start teachers 
lacks a bachelor's degree, and Head Start teachers make $20,000 
a year less than comparably trained kindergarten teachers. 
Improving Head Start teacher preparation and compensation must 
be a priority.
    Second, improving curriculum. To prepare children to 
succeed in school, great teachers need evidence-based, 
developmentally appropriate, content-rich, and well-organized 
curricula, but many early childhood curricula used in Head 
Start today fail to provide sufficiently rich content or 
support for teachers.
    Third, continuous improvement. At both the grantee and 
Federal level, Head Start needs to collect, analyze, and use 
data to support ongoing program improvement. This requires 
building grantee capacity and shifting the focus of monitoring 
from compliance to continuous improvement. To accelerate these 
efforts, researchers and Federal officials must collect and use 
program performance data to identify, learn from, and 
disseminate the practices of high-performing guarantees.
    Fourth, reducing burdensome regulations. Head Start 
programs are subject to some 1,400 separate requirements 
prescribing not just what they do, but how they do it. Head 
Start monitoring focuses largely on compliance with rules, not 
program results. Federal policymakers must reduce overly 
prescriptive and bureaucratic requirements on Head Start 
programs and provide greater flexibility to innovate.
    Fifth, improving coordination with State early childhood 
and K-12 systems. As States build early learning systems, State 
and Federal policies must work to integrate Head Start with 
these systems. They should also support Head Start grantees to 
access and combine State and local pre-K and childcare funds in 
order to offer a longer day or improve program quality. As 
State pre-K expands, Head Start programs also need greater 
flexibility to shift resources between infants, toddlers, and 
preschoolers in response to changing community needs.
    Six, ensuring adequate funds. For too long, Federal 
policies have added new requirements to Head Start programs 
without providing sufficient funding to meet them. Improving 
quality in outcomes will require additional Federal investments 
to enable Head Start programs to cover the cost of improving 
quality without reducing children's and families' access to 
Head Start programs.
    The Obama administration has proposed changes to streamline 
the Head Start performance standards, reduce overly 
prescriptive and bureaucratic requirements, and bring 
expectations for Head Start in line with current research. But 
addressing the challenges above also requires statutory change 
in the next reauthorization of Head Start, as well as 
additional funding.
    As you begin your consideration of Head Start 
reauthorization, these issues, and the needs of Head Start 
children and families, must be at the center of the 
conversation. Thank you.
    [The testimony of Ms. Mead follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you very much.
    Ms. Sanchez Fuentes, you're recognized.

 TESTIMONY OF MS. YVETTE SANCHEZ FUENTES, PRESIDENT, NATIONAL 
     ALLIANCE FOR HISPANIC FAMILIES, GAITHERSBURG, MARYLAND

    Ms. Sanchez Fuentes. Good morning. Thank you, Chairman 
Kline, Ranking Member Scott, and members of the committee, for 
the opportunity to talk about strengthening Head Start.
    As you heard, I'm Yvette Sanchez Fuentes. I'm currently the 
president of the National Alliance for Hispanic Families. From 
2009 to 2013, I served as the director of the Office of Head 
Start at the Department of Health and Human Services. Today, I 
am proud to be before you as an advocate for Latino families 
and as someone who has experienced implementing the Head Start 
program at the local and Federal level.
    As we celebrate 50 years of Head Start, it's a historic 
milestone that presents a perfect opportunity to reflect on how 
the program has grown and evolved. Head Start continues to play 
a critical and often controversial role in the ecosystem of 
early childhood education.
    But there are two things that make this program unique. The 
first is that Head Start was conceptualized as a two-generation 
program supporting the success of both children and their 
families in the communities they reside. The second is a set of 
values that have been passed on, including the belief that 
parents are the child's first teacher, the priority to serve 
the most vulnerable children, the importance of community 
engagement, the significance of honoring culture and language, 
and the consequence of assuring high-quality comprehensive 
services.
    It's been 50 years since President Johnson announced the 
creation of Project Head Start. The program initially began as 
an 8-week summer program to provide services to 3 and 4-year-
olds through preschool classes, medical and dental care, and 
mental health services.
    Today, the program has expanded to include approximately 
1,800 nonprofit and for-profit organizations and States that 
provide Early Head Start services, services for American Indian 
and Alaska Natives, and the Migrant and Seasonal Head Start 
program. Head Start has grown from 560,000 children in that 
first summer to almost a million children enrolled in the last 
school year.
    During my time at the Office of Head Start, I had the 
privilege of visiting many Head Start programs across America, 
including the Havasupai Nation at the bottom of the Grand 
Canyon and programs in every borough of New York City. The 
uniqueness of Head Start is that while there are standards that 
lend themselves to measuring quality and effectiveness, the 
exact combination of the services designed by local grantees 
must be responsive to each child and families' ethnic, 
cultural, and linguistic heritage.
    Programs build relationships with families that support 
positive parent-child relationships, family wellbeing, and 
connections to peers and community. President Johnson often 
described Head Start not so much as a Federal program, but a 
neighborhood effort. One example of that commitment is that 
since 1988, Minnesota has appropriated State general funds for 
local Head Start programs.
    Both Head Start and Early Head Start programs offer a 
variety of service models, depending on the needs of the 
community. Programs may be in centers, schools, family child 
care, or receive services through the home-based model.
    During my time at the Office of Head Start, the birth-to-
five model was piloted. The pilot made grants available to 
develop a comprehensive, seamless birth-to-five program. This 
model offers promise for serving children from earlier ages and 
for longer periods of time.
    Much has changed since Head Start began 50 years ago. Head 
Start is no longer the sole provider of early childhood 
education. The State role in pre-kindergarten for 4-year-olds 
has grown significantly and left many wondering where Head 
Start fits into this new landscape.
    For 50 years Head Start has been the Nation's laboratory, 
providing services to homeless families, children with 
disabilities, dual-language learners, professional development 
for teachers, and training parents. There are millions of 
stories about how the Head Start changed the life of a child. I 
have seen it firsthand. One example: In New Jersey, a mom 
shared with me that after she lost everything when Hurricane 
Sandy hit, when she was able to check her messages, the only 
phone messages were from the Head Start teacher.
    As you work and consider changes to improve the Head Start 
program, it would be critical to maintain the Federal-to-local 
funding structure. So I'd like to end by sharing what Head 
Start means to me. It means that no matter where you are born 
in America, the color of your skin, the language you speak, the 
state of your child and family, Head Start will be there to 
offer an opportunity to make your dreams come true. Thank you.
    [The testimony of Ms. Sanchez Fuentes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you very much. Thank all the 
witnesses for excellent testimony. We have a panel of real 
experts here. I'll yield myself 5 minutes, and then I'm going 
to be fascinated to watch the clock wind down here.
    It seems to me I've heard from all of you and so many 
people who are involved in Head Start that there is resistance 
to a one-size-fits-all model and that the local Head Start 
programs have to have the flexibility, my friends from 
Minnesota were telling me in the office the other day, to do 
the right thing for their students, for their population.
    So I'm going to start with you, Ms. Sanchez Fuentes, 
because you have an incredibly interesting and unique 
background working at the Federal level and with the kids on 
the ground. So as we look at making a new statute, how can we 
make sure that the Federal Government doesn't impose either too 
many or too overly burdensome requirements on local programs? 
What should be our guidepost there?
    Ms. Sanchez Fuentes. Thank you for the question.
    So I would start by saying that standards are important. 
They do provide for a base level of quality, and it is a way to 
be able to measure how programs are doing across the country.
    I would also suggest, though, that monitoring, as it stands 
today, does focus on compliance. While there have been many 
changes to the monitoring system over the last 5 to 7 years, it 
does have quite a ways to go, and it does have to focus on 
providing flexibility to local programs. But as you can 
imagine, from a Federal perspective, that can be difficult if 
you have requirements that you are required to implement by the 
law while at the same time trying to hear what grantees are 
saying.
    So I would hope that as you think about reauthorization and 
what needs to change, keeping in mind the requirements that the 
Feds have to implement while at the same time trying to be 
innovative and listen to grantees.
    Chairman Kline. Ought to be easy enough.
    Dr. Nolan, kind of the same question because you were 
getting at this as well. How can we make sure that people at 
State and local level are able to be innovative and to adapt to 
the needs that may exist in the bottom of the canyon or the top 
of the mountain, inner city and rural? How can we do that? 
Because the temptation, frankly, is just write a law and say 
all of you go do this thing.
    Mr. Nolan. Correct. Yeah. One of the things that I would 
say to the committee, Head Start is very, very unusual in that 
most of the performance standards that are in place were 
advocated for from the field, and part of it was we wanted to 
make sure that Head Start across the Nation was as good as Head 
Start was in our community.
    One of the things that we have in place right now is the 
need to do an annual community needs assessment, a super in-
depth one every 3 years, to make sure that the program we're 
delivering is the program that our community needs.
    And one of the things that I would suggest to you, since 
I'm a consultant to business as well, in business they are 
discovering design thinking, which is put together a pilot, try 
it, learn from it, make it better. That's been 50 years of Head 
Start's history. I mean, in my agency, the next 12 months is 
going to be a little different than the last 12 months based on 
who it is that we're recruiting, what it is that the community 
is needing.
    A key piece. You can, as I said in any statement, you can 
mandate compliance. You cannot mandate excellence. One piece of 
the 2007 legislation was on centers of early childhood 
excellence, which was a model that I worked very closely with 
Senator Alexander and his office on, came from a piece that we 
did in Wisconsin, and the notion there was to create models of 
Head Start excellence that could, in fact, be places for people 
to come experience and learn best practices. And we've got to 
put more emphasis on the magnet toward excellence and less on 
catch people doing something wrong.
    Ms. Sanchez Fuentes. If I may, I would just like to add one 
quick thing. So we already have a model in Head Start that 
exists. It's called Migrant and Seasonal Head Start. I would 
suggest that would be a great place to start. These programs 
actually serve families birth-to-five, and they do have the 
ability to be flexible year by year, depending on the families 
who are coming into their community based on agricultural work.
    Chairman Kline. Thank you. I see my time has expired.
    Mr. Scott.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Ms. Mead, or anybody that happens to know, the last 
authorization of Head Start was in 2007, and we think we made 
significant improvements. Can anybody comment on the changes 
made in 2007 and whether they worked or not?
    Ms. Mead. That's a pretty broad question. And the 2007 
reauthorization did a lot of things. Some of the most notable 
were the creation of the designation renewal system, which 
changed all Head Start grantees to 5-year grants and then 
required certain grantees to compete at the end of those 5-year 
grants if they hit any of seven indicators defined by the 
Department.
    That . . . based on what we've seen, about 5 percent of 
Head Start grantees have actually turned over, over the past 3 
years, as a result of the designation renewal process. The 
process is far from perfect, largely because the criteria 
continue to be based in largely a compliance-oriented 
monitoring approach that we've already talked a bit about today 
and because a great deal of weight is placed on the Classroom 
Assessment Scoring System, which is an observation of teaching 
quality in Head Start classrooms, which is very, very powerful 
as a tool for professional development and for improving 
teaching practice, but is in and of itself not robust enough to 
put a large weight of program accountability on it without 
additional performance measures included.
    So there is a need to improve the criteria used for 
designation renewal, but designation renewal itself, in terms 
of results, has produced a variety of positive results in terms 
of spurring improvement and transitioning grants away from low-
performing grantees.
    Another major change was obviously the creation of the 
requirement that 50 percent of Head Start teachers have a 
bachelor's degree and all teachers have an associate's degree. 
There's been tremendous progress on that front. Over 70 percent 
of Head Start preschool teachers now have bachelor's degrees.
    And through the Classroom Assessment Scoring System, which 
is the tool that I referenced earlier, used to monitor the 
quality of teaching, we have seen increased attention to the 
quality of instruction in Head Start classrooms, increased 
efforts to boost teachers' skills and ability to engage 
children in meaningful instruction and emotional support, and 
we are seeing some progress at the program level on those 
scores.
    Although we are also learning that focusing on instruction 
alone and adult-child interactions alone without coupling that 
with rich curriculum is not producing the results that we want 
for kids in some cases.
    Mr. Nolan. I'd like to address a couple of those items. I 
work very heavily with this committee and with the Senate side 
on reauthorization. I did 39 self-funded trips to this fine 
city. And you know you've been here too often when hotel staff 
are recognizing you.
    But because of the work that was done during 
reauthorization, we have something that we badly needed, which 
was a more organized approach to moving low-performing agencies 
out of Head Start.
    The what was correct. The who and the how is still broken, 
where we've got Type I, Type II error, so we are missing 
agencies that probably should be in designation renewal. We are 
throwing agencies into designation renewal who should never 
have been there.
    My own agency, one of the top agencies in the country, 
ended up in DRS because we were on the piece that Ms. Mead was 
talking about, the evaluation of classroom activity. We were 
0.0109 under an artificial cutoff based on the observations of 
a single individual one time in our classrooms, and for that, 
we went through 18 months of arduous reentry back into Head 
Start.
    We need to get it to be much better. We need to keep it in 
place because it's really critical.
    I think the other piece that we need to come back and look 
at is, how do we deliver on what it is we know to be best 
practices? Best practices. When I. Twenty years ago, site 
visits were productive, positive events. The people coming in 
would make suggestions for improvement. There would be almost a 
kind of pollinating kind of a process of a team sharing things 
that they were learning across Head Start.
    At this point, it's not permissible for site visit folks to 
make recommendations. We know how to do this much better than 
we do it on any given day.
    Mr. Scott. Dr. Nolan, I want to get in another question. 
Can you say a word about the importance of parent committees?
    Mr. Nolan. Yeah, the whole role of parents was 
institutionalized in 1970 in a regulation called 70.2, second 
regulation in 1970, and it institutionalized parents as 
decisionmakers, not just suggesting, not just kind of a 
parallel process to the decisionmakers. So what we want to do 
is make sure that we don't lessen the role of parents in 
shaping that local agency and what it is that the agency is 
doing.
    Again, one of the things that I've said in some of the 
writings, we are one of the most customer-responsive 
organizations on Earth. At one point, J.D. Power had identified 
that Head Start had a higher satisfaction rating than Mercedes-
Benz.
    Chairman Kline. The gentleman's time has expired.
    Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman.
    In my home State of Michigan, Michigan Head Start offers 
services to more than 34,000 children and their families. In 
reading through Michigan's Head Start's comments on the 
Department's notice of proposal rulemaking, they shared many 
worries and concerns that have already been raised today. They 
also recommend alternatives for implementation of the rule and 
ask for increased flexibility in order to mitigate the 
estimated lost opportunities for children and families, all the 
while still dedicated to finding ways at the local and State 
level to strengthen the quality of their programs.
    Mr. Chairman, I'd like to ask permission to have their 
letter put into our document.
    Chairman Kline. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walberg. Thank you.
    Dr. Nolan, on the basis of your extensive experience in the 
field and with many, many children and families, could you 
share further your recommendations for alternate 
implementation, and maybe even more importantly, increased 
flexibility in the proposed rule that would allow your program 
to strengthen and improve?
    Mr. Nolan. In many ways what we need is already in place, 
but we are not able to get to it in a culture that has shifted 
over the last decade toward catch people doing something wrong 
as opposed to build on strengths. There's a wonderful book out 
called, ``Soar with Your Strengths,'' and that particular book 
speaks to the notion of investing in growing up the things that 
you're really good at as opposed to trying to cover the things 
that are weakness areas.
    All of us have weaknesses. We all need to work on those. 
What we need to be doing is investing in building on strengths 
so that we can take parent involvement. And arguably, we are 
one of the best organizations in existence on involving 
parents, and we could be better. We need to have system 
recognition of those who are surpassing performance standards.
    Mr. Walberg. Getting back to the proposed rule 
specifically, what is the proposed rule doing differently than 
that?
    Mr. Nolan. Well, at this point, the proposed rule would 
lessen the role of parents, which is the direction we don't 
want to take. We want to look at how to make that work better. 
It overlooks possibilities that have really not even had formal 
discussion. As we think about dual generation, how can we get 
better at that?
    And there is very little credit. For instance, I have an 
individual who's on our board who came to us 32 years ago as a 
single parent, depressed, and at some point fully on public 
assistance. Basically, as he found Head Start and we kind of 
induced him into involvement--and he will tell you, and I have 
his story, that he was dragged kicking and screaming in--what 
happened was we helped him get his life in order.
    He ultimately started a business 22 years ago. Today he 
employs seven people. It's not General Motors. But instead of 
being on public assistance himself, he is providing employment. 
We need more opportunity to do that and--
    Mr. Walberg. Is success in changing parents relatively few 
and far between, or do you see this regularly?
    Mr. Nolan. We see it regularly. I mean, in his case, 
starting a business and being an employer of 22 years, that's 
unusual, but seeing the progress of parents is pretty much 
universal. We. Remember that we go out and recruit the least 
likely to succeed, so lots of chaos going on in people's lives, 
lots of challenges, and because of the limited percentage of 
people who can make it into Head Start, those who do are very, 
very high in need.
    Mr. Walberg. Ms. Sanchez Fuentes, let me just--and I 
appreciate those comments, and I want to labor further on 
that--do you find the same thing with parents in working with 
your group, as it were, and the specific needs relative to the 
Hispanic community and families?
    Ms. Sanchez Fuentes. So I would say that at both the local 
level and at the national level, we have definitely seen that 
Hispanic children and families have the least access to quality 
care. So when they get into Head Start they take advantage of 
it, and we've seen that it does have positive effects and it 
can absolutely change the road that their lives take.
    Mr. Walberg. For the kids, the students, but also the 
families.
    Ms. Sanchez Fuentes. Absolutely.
    Mr. Walberg. And I guess, Mr. Biel, it looks like you're 
jumping in your chair. Give me your response.
    Dr. Biel. You're very perceptive.
    So I just wanted to point out that it's really not just 
about generic support for parents. There is really the 
opportunity to galvanize parents' own skills and capacities 
through the activity that goes on within the four walls of a 
Head Start facility, that so much about improving childhood 
outcomes, some of the brain-based capacities that I mentioned 
in my testimony, can be really, really accelerated in their 
improvement through addressing those same capacities in 
parents' executive functioning and emotional regulation.
    Those are capacities that change throughout the lifespan. 
The most promising time is to get in there in the first 5 
years, but it's not too late when we've got a 25- or 35-year-
old parent walking through the Head Start doors, to intervene 
with those parents and by improving their capacity.
    Chairman Kline. I'm sorry, the gentleman's time has 
expired.
    Mr. Walberg. Thank you, Mr. Chairman. It's good to talk 
good things about parents.
    Chairman Kline. Indeed.
    Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Chairman Kline and Ranking Member 
Scott, for holding this important hearing today.
    And thank you to the distinguished panelists for testimony 
and appearance here today.
    I strongly believe we must reauthorize Head Start without 
delay. Strengthening and improving high-quality early learning 
programs like Head Start is one of the best investments we can 
possibly make.
    I have four daughters, and one of them, the fourth one, was 
recognized as teacher of the year in a region in south Texas 
that serves 39 school districts, and she was teacher of the 
year for early childhood development, teaches 3 and 4-year-
olds. And she says: ``Dad, Congress can do better.''
    So let me say that in my congressional district, Head Start 
and Migrant Head Start serves more than 12,000 children of 
working families, and these programs have made a significant 
impact on improving the opportunities for our children, 
especially our Nation's Latino and African American youth.
    I founded what I call the South Texas Literacy Coalition 6 
years ago to promote early literacy and parental involvement in 
our vulnerable children's education opportunities because I 
have always believed that teaching our children fundamental 
skills such as early reading and writing is a formula, a 
winning formula, for success.
    This early learning program of reading every day for 30 
minutes before bedtime from cradle to age 4, before they go to 
kindergarten, helps children love books, build a good 
vocabulary, and helps them stay at grade level kindergarten 
through the 12th grade. We must maintain the national program 
quality and comprehensive services of Head Start that you, as 
panelists, have recommended.
    My first question is to Ms. Fuentes. It's an honor to have 
you testify here today, and I commend you for your dedication 
to underprivileged children and to our Hispanic community.
    My district is situated on the border with Mexico and is a 
very high need area with 92 percent Hispanic population. What 
improvements can we make to the Head Start program so that all 
minority children and their families in high-need areas like my 
district can continue to benefit from this Head Start program?
    Ms. Sanchez Fuentes. Thank you, Mr. Hinojosa. I appreciate 
that.
    So I would say very clearly that one thing that Congress 
can do is actually blend Head Start and Early Head Start into 
one seamless program, birth-to-five, so that it does create the 
flexibility that programs need in making sure that they're 
serving the most vulnerable children.
    Migrant and Seasonal Head Start is a perfect example of 
this. They've been doing it since the inception. And they 
really do provide services to those that are most in need, but 
they also have the flexibility, depending on what is happening 
in their community, to determine who are those children on a 
case-by-case basis. And that happens through flexibility, 
accountability, and also through very robust community needs 
assessment that takes into account who is in your community, 
what are the other services that are available, and who are the 
kids who are being left out.
    So thank you for the question.
    Mr. Hinojosa. Ms. Sanchez, in your testimony you stress the 
importance of maintaining the community-based structure. Are 
you concerned that the Head Start program is moving towards a 
more centralized structure rather than a community based one, 
as you described?
    Ms. Sanchez Fuentes. Not at all, sir. I was really 
referring to stating explicitly that the program should remain 
a Federal to local program. These are Federal tax dollars, and 
we do have to be held accountable for how those are used, but--
    Mr. Hinojosa. Thank you.
    Ms. Sanchez Fuentes. Thank you.
    Mr. Hinojosa. Thank you.
    I want to ask a question of Sara Mead. The bipartisan 20-0-
7 Head Start reauthorization called for significant 
improvements to Head Start. Important changes to the program 
have been made over the past 8 years. What impact have you seen 
thus far?
    Ms. Mead. So we talked about some of the changes in terms 
of more teachers with bachelor's degrees, improvements in 
classroom quality, turnover of some of the low-performing 
grants. We don't actually have data right now to see what 
impact it's made in changes on children's learning. It just 
takes too long to do that kind of research for us to know what 
the impact has been on children's learning.
    But as we look at any of the research from the Impact 
Study, for example, it's important to realize that Head Start 
today is a very different program than Head Start in 2002 was 
in a number of key quality domains when the children in the 
Impact Study went to school.
    Mr. Hinojosa. Before I yield back to you, Chairman Kline, I 
just want to close by saying to my colleagues on both sides of 
the aisle, we in Congress can do more. Thank you.
    Chairman Kline. The gentleman yields back.
    Dr. Heck.
    Mr. Heck. Thank you, Mr. Chair.
    Thank you all for being here and for your testimony today. 
And certainly anyone who spent any time in a Head Start 
classroom, like I have in my district, would understand and see 
the clear benefits of the program.
    But I would ask, you know, for those that are detractors or 
naysayers, and there are some that are out there, about Head 
Start programs, how do you explain the incongruencies between 
what would seem intuitive and what all of you have discussed 
this morning, that early intervention in education prepares 
children for future success, especially those children that 
suffer from, quoting Dr. Biel, early adversity, and the HHS 
Head Start Impact Study that found by the end of the third 
grade there were very few impacts in any of the four domains of 
cognitive, social-emotional, health, and parenting practices, 
and the few impacts that were found did not show a clear 
pattern of favorable or unfavorable impacts for children?
    There seems to be a disconnect between the HHS study and 
what appears to be intuitive and what you have all talked about 
today.
    Mr. Nolan. Let me jump in, because it obviously is an 
albatross that's been around our neck since 1970 in the Nixon 
administration. One of the things that I think we've got to be 
very careful of is to imagine that Head Start can be a magic 
bullet that can erase the family challenges of the most needy 
families in the country on a permanent basis.
    I mean, what we're looking at is a 4- or 5-year-old who's 
handed over to the public schools and now we're looking at them 
4 years later to look at differences. And I have two pieces 
that I want to put in. One is a quote from Governor John Kasich 
of Ohio who has said publicly multiple times that when children 
are in Head Start, they are on a superhighway, and then they 
hit the gravel road of public education. And one of the issues 
that we face is public education is not prepared to maintain 
differences over time.
    A personal experience. My oldest daughter was born to two 
college students, so she watched us read a lot, which then 
induced her to become an early reader. By 18 months, she was 
decoding words. She was an accomplished reader by the time she 
hit public school.
    Their accommodation was to put the first grader into second 
grade reading. Then we had a meeting. And the meeting with the 
first grade teacher, second grade teacher, and the principal 
was ended by me when the principal announced: ``I wouldn't 
worry much about Tracy. By the time she's in third grade, 
she'll be pretty much like everybody else.''
    And as a parent, that was not our goal. And what we're up 
against is we're running a public education system that still 
is on a modified agrarian calendar using a manufacturing batch 
model system trying to prepare kids for an electronic age. 
We've got to work together on schools.
    I mean, one of the things that encouraged Arne Duncan, the 
Secretary of Education, on is we need to quit treating kids as 
though they are a baton to be handed off to the public schools. 
We would like to keep working with the parents to help them 
figure out how to become a part of decision making in their 
child's life once they hit public schools.
    Mr. Nolan. And I'll end with a comment from one of the 
principals in one of our partnerships who said: ``You really 
need to keep in mind that quite a number of building principals 
see themselves as the gatekeeper to keep parents out of school, 
as opposed to encouraging them to come in.'' We need to change 
that.
    Ms. Mead. So first I think it's important to recognize that 
the Impact Study did show that children in Head Start made 
significant learning gains while they were in Head Start. But I 
think in context, it just underscores Mr. Hinojosa's point that 
we need to do better. Because most early childhood intervention 
shows some form of decline in impact over time, the magnitude 
of that impact at kindergarten entry is very important. And 
Head Start's impact at kindergarten entry was not as large as 
some other high quality pre-K programs. So we need to look at 
what we can do in the program to increase that impact.
    And we also need to look at the variation that we're now 
seeing in the Impact Study data across Head Start programs 
themselves, to try to understand what are the various factors 
within different Head Start programs that lead to better and 
worse results. And to try to get more Head Start programs to 
look like the ones that are producing the best results for 
kids. We have programs that are producing great, long-term, 
sustained results for kids. We need to spread that across the 
entire program.
    Mr. Heck. Great. I thank you all very much. Dr. Nolan, 
thank you for your insightful review. And I hadn't heard 
Governor's Kasich's quote previously, but I'm sure I'll be 
using that again.
    Mr. Nolan. Yes, I have.
    Mr. Heck. Yield back.
    Chairman Kline. The gentleman yields back, setting an 
excellent example for all of my colleagues. Just so everybody 
in the room understands, we're working a deal up here where 
people filibuster for 4 minutes and 50 seconds and then ask you 
a question that you need 3 minutes to answer. My patience is 
wearing thin. Ms. Fudge, you're recognized.
    Ms. Fudge. Certainly, I'm sure, Mr. Chairman, you're not 
referring to me since I always give my time back.
    Chairman Kline. Yes, you do.
    Ms. Fudge. Thank you so much. And thank you all for being 
here today.
    Let me start with Dr. Biel. You mentioned the myriad 
negative effects of growing up poor and the mental and 
emotional health of children. As we look at today that school 
children living in poverty is almost 49 percent, can you expand 
on the intervention strategies that you think are necessary for 
Head Start to mitigate the nationwide future effects of these 
49 percent of students growing up in poverty?
    Dr. Biel. Absolutely. Thanks for the question, Ms. Fudge. I 
think we can think about several tiers of intervention, things 
that all kids living in poverty should have access to, and then 
things that kids who are living in poverty and are showing 
other risk factors or signs of real additional vulnerability 
should have access to.
    And I think that Head Start is a place where both tiers can 
really have a chance to be implemented. There need to be 
universal, sort of protections for kids who are living in 
poverty. And Head Start provides the opportunity for kids to 
get away from an environment that may be either associated with 
deprivation or with additional sort of, real stress.
    Kids need to get away from survival mode in order to 
progress developmentally. And that includes the full spectrum 
of social development, emotional development, academic 
development. None of those things can progress appropriately 
when kids are living moment to moment, survival to survival.
    And so Head Start provides that oasis. And by including 
parents, as we've all spoken about, that's clearly a common 
theme here, by including parents' input and also assessing and 
addressing parents' capacities. That's also a universal element 
that can be introduced within Head Start settings. There are 
going be a number of, not all of those 49 percent of kids 
living in poverty are going to have additional vulnerability. 
That's sort of a baseline vulnerability. There's additional 
vulnerability based on some of the other factors I've talked 
about like mental illness or exposure to trauma among kids who 
are very young. Those kids need additional intervention.
    And I'll mention one really terrific example, which is the 
Trauma Smart model. The Head Start Trauma Smart model out of 
St. Louis, which took a really holistic approach to supporting 
families, training teachers, working individually with children 
who'd had a trauma exposure, and were in Head Start programs. 
And what they were able to do is really engineer a cultural 
shift within the Head Start site and their programs to really 
take trauma very seriously and to address it proactively in 
kids and families. And that sort of multi-dimensional approach 
is very, very promising and it really merits further support.
    Ms. Fudge. Thank you very much.
    Dr. Biel. Sure.
    Ms. Fudge. Ms. Mead, in your testimony you stated that 
Federal policies have added new requirements to Head Start 
programs without providing sufficient funding to meet them. If 
no congressional action is taken, what effect do you think 
another sequester cut will have on Head Start programs and the 
families that the program services?
    Ms. Mead. Well, we saw in the last sequester that there 
were a significant number of families that lost access to Head 
Start services as a result. And that was both very problematic 
for those families that lost the services and for the children, 
both from a development and from families' ability to work by 
having childcare perspective. But it was also very disruptive 
for the programs and, therefore, caused disruptions for the 
children who were still served in the programs as well.
    So, the absolute magnitude will depend on the actual 
numbers and the math that other people besides me need to do. 
But it is a significant negative impact on those children, 
their families, and really all the children served in the 
programs as well.
    Ms. Fudge. Thank you. Mr. Chairman, I yield back.
    Chairman Kline. Oh, you are absolutely my hero. Mr. Carter, 
you're recognized.
    Mr. Carter. Thank you, Mr. Chairman. And thank all of you 
on the panel for being here.
    Ladies and gentlemen, I'm from the State of Georgia, and 
we're very proud of our lottery-funded pre-K program that I 
hope all of you are aware of. It's very similar, as you know, 
to the Head Start program. However, there are some differences. 
First of all, it was the first universal program in the Nation. 
But specifically between Head Start and the lottery-funded pre-
K program, the pre-K program has shorter days. It also has, it 
has more educational requirements for the teachers.
    But, most significantly is the cost per child is several 
thousand dollars less than the Head Start program. Any idea why 
that would be, why that program would be so much more efficient 
and so less costly than the Head Start program? Dr. Nolan?
    Mr. Nolan. I don't know that program. I actually did spend 
3 years as the strategic planning consultant to the Department 
of Ed in Georgia. So I'm familiar with Georgia education a 
while back. And--
    Mr. Carter. It must have been quite a while back.
    Mr. Nolan. Yes, it was. Warner Rogers was superintendent. 
And he's in a history book someplace. I think part of what 
happens with Head Start is, as we look at the additional 
services, those services cost money. And most preschool 
programs don't have more in-depth services. So the mental 
health consultation, et cetera, that can become a factor.
    Another factor that we're up against, for instance, as we 
compare efficiency--for instance, payroll for teachers, we're, 
as people have identified, as much as $20,000 behind. One of 
the reasons is by both State licensing and best practice, the 
classrooms require a multiple of teachers in a room. I mean, I 
called our Federal program officer a while back and said we're 
paying our teachers the same as public school teachers. She was 
enthralled until I said but we have to spread that salary among 
two and a half people.
    Mr. Carter. That would kind of be my question. Is that, is 
the program so rigid that it can't be, it can't be intertwined 
into an existing State program?
    Ms. Sanchez Fuentes. May I jump in?
    Mr. Carter. Yes.
    Ms. Sanchez Fuentes. Thank you. So I would agree with part 
of what Mr. Nolan started with. So Head Start is by law 
required to ensure these comprehensive services. And I think 
that definitely goes into this higher cost per child.
    One of the things that we have to start to think about is 
how, at the State, and the Federal, and the local level, we 
start to think about this collaboration that everyone here has 
talked about. So how do you use those resources more 
efficiently so that we raise quality for all the kids who are 
in our programs. But we also support teachers. And we support 
parents. And we make sure that kids are healthy, getting their 
dental care, and--
    Mr. Carter. Okay. And I appreciate that. But my concern is 
the program is too rigid, that we're not able to incorporate it 
into existing State programs that work quite well. And, I'm 
sorry, but I've got a limited amount of time.
    And I want to get into something, Dr. Biel, about the 
longer days. I was in the State legislature for many years. And 
during that time, we talked about extending the days in the 
pre-K program, but we really didn't want to pay for nap 
periods. Are the extended days for 3- and 4- and 5- year olds, 
it seems they would lose focus after a while.
    Dr. Biel. Thanks for the question. I think that it all 
depends upon how that time is spent. And I think that most kids 
in that age range are absolutely available for different kinds 
of learning across the day. If we're talking about pre-literacy 
drilling for kids that are 3- 4- and 5- years old throughout 
the day, that's absolutely, I think, probably an inappropriate 
allocation of time.
    But for other kinds of programs, because kids in that age 
range, whether they're in a Head Start program or at a 
playground, are learning and exploring and developing all the 
time. And so if properly supported and scaffolded in an early 
childhood program, it can absolutely be time well spent. And 
they'll have a better time to nap but it's absolutely a time 
for learning as well.
    Mr. Carter. But my point is, and the point has already been 
made, that you're required to have certain teachers. I mean, if 
that extra time is just being spent for naps and we're having 
to pay these teachers during that time, that's not money well 
spent. Dr. Nolan, I know you wanted to say something.
    Mr. Nolan. Yes, I want to support you. That for 3- year 
olds it's different than 4- year olds. In 3- year olds, 
virtually all State licensing requires that they nap. So if we 
were to move a 3.5-hour day to a 6-hour day for a 3 year old, 
we would be paying for probably 2 hours of nap time. It's 
different for 4- year olds.
    Mr. Carter. Thank you very much, Mr. Chairman. I yield 
back.
    Chairman Kline. I thank the gentleman. Ms. Bonamici, you're 
recognized.
    Ms. Bonamici. Thank you very much, Chairman Kline and 
Ranking Member Scott. This has been an interesting and 
enlightening discussion.
    A couple of points to start, we've talked a lot about the 
role of parents and the importance of parents. In light of the 
fact that the United States is the only industrialized country 
in the world and, in fact, one of the only countries in the 
world that has no paid parental leave, I just want to emphasize 
the importance of the Early Head Start programs, whether 
they're combined into one program or not, I just want to 
emphasize that.
    Dr. Nolan, I really appreciated your comment about the 
whole child, and especially as it relates to not making public 
schools, that transition--make public schools more like Head 
Start, not Head Start more like public schools. And I want to 
invite everyone to watch, I'm soon introducing, re-introducing 
a bipartisan whole child resolution, talking about the 
importance of educating the whole child.
    And that leads me to my question which is about nutrition. 
I'm working on legislation with Congresswoman Elise Stefanik of 
the committee to make changes to the Child and Adult Care Food 
Program. And Head Start providers are participants in that 
program. So we know the importance of nutritious meals for 
children and also the importance of educating families about 
nutrition. So will you each make a comment about the role of 
nutrition and also how the nutrition programs can be improved? 
And I want to save time for another question.
    Mr. Nolan. Sure. I'll go quickly. One of the things that we 
pride ourselves on is we are, obviously, are a participant in 
the USDA program, but it's only a foundation for what we do. In 
an 8-week, 40-lunch period, we only repeat 3 lunches in 40 
lunches.
    We have a chef on staff who is highly talented. One of the 
reasons is we have to manage for 300 kids eating, 81 
specialized diets. So the whole nutrition area is absolutely 
critical to make sure that--the typical Head Start child gets 
the bulk of their daily nutrition while they're at a Head Start 
center. They get a breakfast and a lunch and a snack.
    Ms. Bonamici. Dr. Biel, the importance of the healthy 
nutrition?
    Dr. Biel. Sure. Another brief comment, thank you. I just 
wanted to emphasize that social and emotional health in early 
childhood is biological. And the experiences of early 
diversity, which I keep coming back to, they get under the 
skin. And when we think about the potential ramifications of 
effective programming for early kids, early childhood, that 
extends to risk factors for things like obesity and diabetes 
that I mentioned in my testimony.
    Kids who are exposed to early adversity that is 
unmitigated, unchecked, unbuffered, have inflammatory changes 
in their biology that extend across the lifespan and impact 
things like risk for obesity decades later.
    Ms. Bonamici. That's great. Thanks. Ms. Mead?
    Ms. Mead. Obviously nutrition is important for young 
children's development. And the Child and Adult Care Food 
Program is a crucial source of support for that, and not just 
for Head Start but for other early childhood programs. That 
said, it also is a program that has a lot of bureaucratic and 
paperwork requirements. And to the extent that in seeking to 
strengthen and improve that program, that can be done in a way 
that lessens that paperwork burden--
    Ms. Bonamici. I appreciate that. I heard that when I 
visited a center. Ms. Sanchez Fuentes?
    Ms. Sanchez Fuentes. I would ditto what Ms. Mead said. It's 
reducing the administrative burden because it's not just Head 
Start, it's childcare, family childcare, lots of folks rely on 
it.
    Ms. Bonamici. Terrific. Now I want to ask you each again to 
make a comment about the need for improved coordination in the 
transition from Head Start to a K-12 program. What could we do 
to make that transition better? Dr. Nolan?
    Mr. Nolan. We're in, because I mentioned in my testimony 
that we're already in a deep partnership with one of our major 
districts where we have, where we're delivering 4- year old 
kindergarten services in a contract with the District, as well 
as Head Start services, that integration obviously becomes very 
natural.
    One of the challenges that we face is that the schools are 
not that focused on transition. So we have to work very hard to 
have meetings, to transfer information, to work with one 
another.
    Ms. Bonamici. Dr. Biel?
    Dr. Biel. Thank you. I'll just say briefly, here in 
Washington, we're working locally with D.C. Public Schools, 
with early childhood education centers. And also with primary 
care to figure out how we can more effectively share 
information and share data in a way that's going to really 
optimize kids' outcomes. And that's going to take a lot of 
work.
    Ms. Bonamici. Sure. Ms. Mead?
    Ms. Mead. I don't have a lot to add to what they've said. 
And time is limited, so I'll give it to Ms. Sanchez Fuentes to 
answer.
    Ms. Bonamici. Thank you. Ms. Sanchez Fuentes?
    Ms. Sanchez Fuentes. I would suggest that there be some 
requirement on the public school system to have a very real 
relationship with their Head Start and their Early Head Start 
programs in order to share data, to share information, and to 
transition families appropriately into the public school.
    Ms. Bonamici. Terrific. Thank you. I yield back, Thank you, 
Mr. Chairman.
    Chairman Kline. I thank the gentlelady. Mr. Bishop, you're 
recognized.
    Mr. Bishop. Thank you, Mr. Chairman. And thank the panel 
for being here today and sharing your testimony today.
    Dr. Biel, on the subject of outcomes, continued discussion 
on outcomes, you indicated that to truly improve outcomes, it's 
critical to engage families and effectively collaborate with 
community resources to support diverse needs of families. I 
would like you to expand on that if you could please.
    And also as a father of three and I'm from a big family as 
well, my three kids are in the public schools right now, I'm a 
firm believer that the most consistent, that the family is the 
most important influence in terms of outcomes.
    And I'm wondering if, in your experience, you can tell us 
if there's any engagement techniques, that a family can do 
better than others, that would help outcomes, just for my own 
and for all of our benefit, how we can best help our children?
    Dr. Biel. Thank you for the question. I can speak about 
some experiences that I've been really impressed by, again, 
locally in my work in D.C. I think that there are things that 
schools, and this extends from early childhood education 
settings all the way into public elementary and higher grades 
as well. That send a message from schools to families that 
they're welcome, that their input is important, that they're 
included in part of the educational process.
    There's a terrific organization here in town called the 
Flamboyan Foundation that sends all of its teachers in August 
out to all of their kids' homes and does an hour sitting down 
with the parents in the family's home, having conversation 
about what do we need to know about your child, what do we need 
to know about your family, here's what you need to know about 
me as a teacher. And it gets the school year off to a 
tremendous start where there's this feeling of really active 
collaboration. I think gestures like that are, much more than 
gestures actually, are very substantive. That's one example. 
Dr. Nolan?
    Mr. Nolan. Yes, I just wanted to confirm, that's 
automatically part of Head Start. Home visits are multiple 
times during the year so that we help to build those 
compassionate partnerships. And a suggestion to you, one of the 
things that I think we need to be looking at, there's a 
wonderful book out called Creating Innovators by Tony Wagner 
from Harvard, where he talks about what do families do that 
result in children who can actually thrive in this information 
age. And a lot of it is continuing creativity.
    I mean, I did my doctoral work in creativity and thinking 
skills. We're particularly good at killing creativity. There's 
a fade-out effect among gifted children. Those who are most 
creative as they hit kindergarten as little as 18 months later 
have stopped asking questions. I mean, if you think about it, 
our way of taking in information is asking questions and 
reflecting on those answers. So things that we can do that 
maintain creativity as opposed to squelch it.
    Mr. Bishop. Thank you very much. Mr. Chairman, I yield 
back.
    Chairman Kline. I thank the gentleman. Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman and Ranking Member 
Scott. Thank you to all the panelists for being here today. 
This is a tremendous conversation. And particularly I want to 
pick up, Dr. Biel, on, you had mentioned a trauma program. I'm 
very interested in the effect of trauma and toxic stress on 
kids and families and on childcare providers.
    And I have filed some legislation really trying to promote 
the Head Start model. Because, as Dr. Nolan mentioned in his 
testimony, we're seeing these sorts of startling rates of 
expulsion, which are really hard to believe in 3- and 4- year 
old children. But that's what's happening. And Head Start has 
taken a different--has really shown leadership in this area 
that's very different than some of the statistics we're seeing.
    I wondered if you could elaborate a little bit on what 
programs work. And then sort of a second part of this, being a 
leader in this trauma informed care, do you think there are 
training and technical assistance dollars that could be even 
better optimized by the Head Start programs?
    Dr. Biel. Thanks very much for the question. I think that 
it's, it's critical that there be the opportunity within Head 
Start programs to do a frame shift away from thinking about 
kids' behaviors in this early childhood school setting as being 
bad behaviors and toward understanding them. What does a 3- 
year old's behavior tell us about the rest of that child's 
life? Kids that are showing up in early childhood ed settings 
with behaviors like inability to pay attention, with 
aggression, with inability to sort of attend to a particular 
task, an age-appropriate task, that usually is an indicator 
that there's something going on in that child's environment 
that merits attention.
    And what ends up happening, unfortunately, when it's not 
recognized as such, is that kids are punished, families are 
punished. Kids show up in my office with the idea that there 
are going to be medicines that are going to address these 
problems. When, in fact, what's going on is that there's a 
traumatic environment that kids are growing up in.
    And the program that I mentioned at, that's in St. Louis, 
the Trauma Smart program, I think is particularly laudatory 
because it takes this multi-dimensional approach. It does this 
training for teachers. It helps teachers to understand, how do 
we really understand kids' behavior in the setting of 
adversity--how can we reframe and rethink kids behavior and 
respond to it more effectively. That is accompanied by specific 
skills that teachers get in managing the classroom and 
responding one-on-one to kids who are showing up with difficult 
behaviors.
    And then there's also this intervention for kids who are 
clinically in need that takes place within the Head Start 
setting, which is the most efficient and effective way to get 
at kids.
    And so, there's some evidence-based psychotherapy 
techniques that if we use with young kids who have been 
traumatized really, really have proven to be effective and can 
be delivered in the Head Start setting. The Trauma Smart model 
incorporates all of those.
    Ms. Clark. You mentioned in your testimony that Head Start 
providers tend to have more of that training and technical 
assistance, but that across a spectrum we need to have early 
educators and childcare providers receive that training. Do you 
think that Trauma Smart is the type of program that could be 
replicated across the system?
    Dr. Biel. That's certainly my hope. I think that there's 
clearly been, as Ms. Mead testified, a real uptick in the level 
of expertise of educators at early childhood centers and Head 
Start. There still tends to be underdevelopment of professional 
skills specifically related to social and emotional needs of 
kids. There can be more done there.
    I think Trauma Smart is one example. I can mention others, 
in written testimony of other examples of programs I think are 
very promising from around the country. But there's no shortage 
of promising programs. I think Trauma Smart is a particularly 
impressive one. But I can mention others as well.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Clark. Great. And do you think there is a way that Head 
Start could even do better in using those technical assistance 
dollars to address toxic stress and trauma?
    Dr. Biel. I think there are a lot of ways that they could. 
One example that comes to mind is mental health consultation 
which ranges widely in the dose that a given Head Start Center 
receives. Some centers receive just a couple of hours. Others 
receive many more hours. And there probably is a minimum 
effective dose of mental health consultation from experts that 
allows centers to respond really impactfully to the problems 
they're presenting in their population of kids.
    An hour a week is probably not enough time. And if time 
were allocated more generously, I think that there would be a 
really, really positive impact with that.
    Ms. Clark. Great. Dr. Nolan?
    Mr. Nolan. I would love to jump in on that one. One of the 
things that we're up against, I think, as we think about what 
does it take to succeed in a Head Start classroom, is you have 
to remember that the classroom is also the child's home.
    There was a study at Harvard where they were looking at in 
a third grade child's life, what percentage of time that they 
spend in a classroom. And it ends up to be about 19 or 20 
percent of their waking hours. Seventy-seven to 80 percent of 
time is about parents. We are in a situation where we take a 
basic teacher, 4-year degree, certified, licensed teacher, and 
give her 2 years worth of additional training in work in terms 
of how to work with children. There is no college or university 
right now who is preparing somebody to be in that intervention 
role in a classroom. We really have to work, more on that.
    Ms. Clark. Thank you.
    Chairman Kline. Sorry. The gentlelady's time has expired. 
Mr. Grothman.
    Mr. Grothman. Thank you. Thanks for all being here today. I 
think it was on January 5, I took an oath to uphold the U.S. 
Constitution. I'm glad we have four educators here. Under what 
section of the Constitution would it be permissible for us to, 
say, re-fund Head Start? Anybody have an answer to that 
question? For any of the four of you? Okay.
    Next, one of my pet peeves, I think it was Dr. Nolan, to a 
lesser degree, Dr. Biel, mentioned poverty. And it always 
bothers me a little because poverty is a material, a money-
based definition. And I always think it's far more family 
structure based as the disadvantage. In other words, I can 
think of children who have a very difficult background, who are 
materially well off, and children who don't have a lot of 
material goods who are not well off.
    Certainly in other countries, there are people who come 
here who do fantastically well in our university system, who, 
by any standard, you know, square foot per person living space, 
food intake, electronic gadgets around the house, would be 
considered dirt poor by American standards doing very well.
    Dr. Nolan, you in particular talked about the disadvantage 
of poverty. Do you think poverty is a bigger problem for 
children or is it family structure?
    Mr. Nolan. I don't know how to weigh one against the other. 
Early Head Start, early in Head Start's history, we went to 
poverty because it was measurable in financial terms. I believe 
that the issues that launched Head Start in 1964, are equal 
opportunity afflictions these days. I mean, we operate a fully 
socioeconomically blended childcare program where we're serving 
upper middle class, middle class, and low income families all 
in one setting. Many of the issues--
    Mr. Grothman. Let me cut you off because you're not 
answering my question. And I've only got 5 minutes. What is 
more important in a child's life, that they have--and, again, 
observing people who do very well in our universities, who come 
here from, say, the Indian subcontinent, from Southeast Asia, 
when I talk to them, they have very little in material goods, 
far poorer than so-called American children in poverty.
    What is a bigger problem in a child's life? The child's 
family structure or how much material goods they have as a 
child?
    Mr. Nolan. I think it comes back to the environment that 
they're growing up in. The family structure is a huge issue. 
For instance, even in Head Start, those who are economically 
eligible are not automatically brought into Head Start. We look 
at the risk factors in a family, about 30 different risk 
factors, the kinds of things I think you're alluding to.
    So those are the factors that we're really dwelling on. As 
you well know, there are families with very little finances who 
are doing very well. They're figuring out how to make it.
    Mr. Grothman. And you think it's true then, if we want to 
improve the next, the lot of the next generation of children, 
we should maybe spend more time focusing on family structure 
and not as much time focusing on, say, things that money can 
buy?
    Mr. Nolan. And I think that's what Head Start does, is 
works on the family structure.
    Mr. Grothman. That's the more important. Now, one other 
quick thing, I've always kind of loved Head Start because as 
government explodes, it's so rare that we ever find a program 
in which the studies show it has been unsuccessful.
    And, of course, I'm sure you're familiar with the Brookings 
Institution studies. The Oklahoma studies on pre-K. I think 
just this week we came out with a study showing that 
Tennessee's pre-K program was not effective. Nevertheless, we 
have four people up here who all say it's a good thing. Could 
some of you comment a little on all these studies showing that 
pre-K programs, their benefits seem to fade a little, or to a 
degree--
    Mr. Nolan. I'll jump in. One of the things that I would 
emphasize to the committee is that there never in 50 years has 
been a study of Head Start that didn't identify that Head Start 
graduates leave vastly improved from where they were when they 
arrived. For us to take a look at what happens four years 
later, is that really a statement about their preschool 
experience or is it a statement about public education?
    Mr. Grothman. Okay. So your thing is you're saying Head 
Start is a success, it's the other 13 years in public education 
that's the problem?
    Mr. Nolan. I think we have challenges at every level as we 
work with children in our society.
    Chairman Kline. The gentleman's time has expired. Mr. 
Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. Head Start is the 
antithesis of social Darwinism, survival of the fittest. And I 
guess that's what the four panelists are talking about today 
and that we're dealing with the question of children.
    One of the discussions at the last reauthorization was the 
idea, and it's not so prevalent a part of the discussion now, 
but the idea of block granting the Head Start funds to the 
State and creating that discretion for the State. I think some 
of you alluded to what your opinion of that process was when 
you talked about individuality.
    Let me start with Ms. Fuentes, if you don't mind?
    Ms. Sanchez Fuentes. Thank you, Mr. Grijalva. So I would 
just state again I think it's critical to maintain the Federal 
to local structure that Head Start currently has. It is 
important for Congress to think about other ways to improve the 
Head Start program. And we've heard lots of ideas here about 
flexibility, coordination, and of course, thinking about how to 
use resources more efficiently.
    Mr. Grijalva. If you don't mind, I have one more question 
for all four after this. Please, I don't know, if someone has a 
different opinion than Ms. Fuentes?
    Ms. Mead. I was just going to add that I think I would 
agree with Ms. Fuentes that block granting Head Start to the 
States is a bad idea, but that there are a variety of things 
short of that could help to improve coordination between the 
programs that States already have and Head Start.
    Mr. Grijalva. And legislation could encourage that?
    Ms. Mead. And that to the extent we can take the idea of 
block granting off the table, we can have a much better and 
more robust conversation about how States and Head Start work 
together.
    Mr. Nolan. And this committee was astute in 2005, 2006, and 
2007 to not hand it to the States. Had it been handed to the 
States in the format that it had originally been proposed, it 
would have gone without the pesky performance standards. And 
something between 35 and 40 States essentially 2, 3 years later 
had moved into near bankruptcy.
    Mr. Grijalva. Thank you. I was gonna also. I believe, and 
other indicators seem to point that out is that, poverty is 
still the biggest obstacle to a child's success given all the 
ramifications that poverty brings with it, family issues, 
toxicity, questions that we're talking about.
    And Head Start from the inception was a categorical 
response to that poverty question, to begin to deal with kids 
at an early age in preparation for kindergarten. That begs the 
question about resources and need.
    As we talk about reauthorization and the fine points that 
many of you have made today, we still, you know, the elephant 
in the room is the resources and the money that would go into 
Head Start. Could you respond in terms of need? And is it 
measurable now to say how much would be needed in the future, 
to address the fact that somebody mentioned, you know, more 
than half of the kids in our traditional public schools right 
now and in public charters are low-income kids. So we're still 
dealing and confronting that poverty question.
    Mr. Nolan. On a local basis, I would tell you that our 
spending power is down about 18 percent over the last 11 years, 
at the same time that expectations are going up--
    Mr. Grijalva. Yes. But we're talking about amounts that are 
national level right now, sir. So 18 percent higher than what 
we're doing now would be your point, right?
    Mr. Nolan. Well, essentially we've lost spending power. I 
mean, obviously we have two issues. One is how do we fund--
    Mr. Grijalva. Well, let me get the other panelists to 
respond as well, sir, if you don't mind. Any other panelist?
    Ms. Sanchez Fuentes. I don't know exactly the dollar 
amount, Mr. Grijalva. But I would suggest that the Federal 
Government, probably the Office of Head Start, has actually at 
some point run some numbers around what that looks like. I 
think Sara in her testimony mentioned that only half of the 
eligible kids receive services. And that's even less in Early 
Head Start. So we have a ways to go.
    Mr. Grijalva. Thank you. Anything else? I yield back, Mr. 
Chairman. Thank you.
    Chairman Kline. Thank the gentleman. Dr. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman. I would like to do a 
little follow up on Mr. Grothman's question, toward the end of 
his questioning time. Dr. Nolan, and then I'll invite all of 
you, if you want, to say something about this. We're often told 
that intentions are what is important in terms of programs, not 
necessarily what the results are.
    Dr. Nolan, we know every study that's been done shows that 
Head Start has no long-term effect. You said that though Head 
Start should be evaluated on what happens at the end of Head 
Start and not later than that, is the way I understood it.
    So should Head Start only be evaluated on its short-term 
effect? If that's true, the administration, I think, has a 
great ideal of hypocrisy involved with its wanting to say to 
higher education, we want to know what your income is going to 
be, if we're going to put money into it, we want to know what 
your income is going to be four years later, eight years later, 
in your lifetime if you get loan money.
    So why should we have a double standard for Head Start and 
other programs?
    Mr. Nolan. And of course, we should not. There should be 
probably four different points where we're evaluated. One is 
when the kids arrive. One is when the kids leave. Those are 
very important. We should be looking at what happens to them in 
early elementary school. What we also need to do, though, is to 
keep the support dosage up so that those gains don't evaporate.
    And then we have a fourth one which is what happens with 
them over their lifetime. And the results there have not 
wavered. The research that's been done with that, James 
Heckman, out of the University of Chicago, is very clear that 
the things that have socioeconomic impact are sustained through 
their public education experience and show up in reduced 
incarceration, reduced teen pregnancy, et cetera.
    So I think the third piece, that we need to come back and 
get better at, is, you know, how do we examine what it is that 
is possible in our current public education system for a child 
who has been in that system for four years. How do we get 
better at that?
    Ms. Foxx. If others of you want to respond very quickly 
because I have a follow-up.
    Dr. Biel. Just quickly picking up on Jim Heckman's research 
is that the return on investment for early childhood 
programming that is high quality is between $4 and $9 for each 
dollar invested.
    Ms. Foxx. Does that take into consideration the amount of 
money that's gone into the research? You know, I don't think 
the government, I don't think you can call it a return on 
investment. I think you have to talk about spending. But I do 
think our way of measuring the results on government spending 
is a little bit different from what happens in business in 
terms of return on investment.
    But how much do these studies do? And how reliable are the 
studies that are done long term? What's your pool that you're 
dealing with? I haven't seen those studies. But what kind of 
pool are you dealing with?
    Dr. Biel. Others can join in too. We can share some of 
those studies with the committee. And the studies are small. 
They're not tens of thousands of kids. But they are very high-
quality studies. Without disputing semantics, I absolutely 
would characterize it as investment in the future of our 
Nation's kids.
    Ms. Foxx. And we don't know--do we know from the studies 
whether we're just getting a Hawthorne effect or if there's a 
true impact from this? Has anybody compared the two? Is it a 
Hawthorne effect or is it simply actual changes that get made 
from the programs?
    Mr. Nolan. I think, for instance, Dr. Heckman, who I 
actually get to introduce at a conference next week, is a 
pretty tough individual, not particularly prone to soft 
measures. He's very much into looking at rates of incarceration 
and the cost of that, rates of teen pregnancy and the cost of 
that. So when we give you those references, I think you'll see 
that, in fact, it is quite traceable.
    The reason the sample size is small is it's a 40 year-long 
ongoing longitudinal study. So they're looking at impacts over 
time.
    Chairman Kline. The gentlelady's time has expired. Ms. 
Adams.
    Ms. Adams. Thank you, Mr. Chairman and Ranking Member. And 
thank you to our witnesses as well.
    As a mother, a grandmother, and a former educator, I do 
recognize that early education provides students with what they 
need in their most critical learning years. More than 27 
percent of the people in my district live below the poverty 
line.
    Students in low-income families already have obvious 
disadvantages that are exacerbated. When they arrive to 
kindergarten, they're less prepared than middle- and high-
income peers. Ms. Mead, in my district, we have a significant 
achievement gap. What role does early childhood education play 
in closing that achievement gap for low-income and minority 
students?
    Ms. Mead. Obviously, early childhood plays a crucial role 
in closing that achievement gap. We know from research that 
between half and a third of the black-white achievement gap 
exists by the time children start 1st grade and that there's a 
similarly large achievement gap for low-income kids compared to 
more affluent children.
    Early childhood programs, we also know, can help to narrow 
that gap by providing high-quality early learning experiences 
that mitigate from some of the challenges that children have 
had early in their lives and help to accelerate learning. Early 
childhood education programs cannot do that on their own. 
Though, they can put children on a solid foundation to start 
kindergarten. But obviously the public school system has to 
carry the ball the next 13 years.
    And so, ideally, what we want to see is high-quality early 
childhood coupled with a high quality K-12 experience. That 
said, we are increasingly seeing folks who started working to 
improve education outcomes in the K-12 system reaching down to 
try to get involved in early childhood because they're seeing 
that they can make an even bigger difference for children if 
they started earlier.
    Ms. Adams. Thank you. In my home State of North Carolina, 
the General Assembly has put early childhood education on the 
back burner. I was a part of that General Assembly for more 
than 20 years.
    Our North Carolina pre-K program and childcare subsidies 
are funded at inadequate levels. And we have long waiting 
lists. For places like North Carolina, can you speak to the 
important role that Head Start funding plays in ensuring that 
low-income students have access to early childhood education in 
the face of reduced State spending?
    Ms. Mead. I mean, Head Start plays a crucial role in early 
childhood education, particularly in the many States that, 
while you have good reasons to be disappointed with your 
General Assembly, there are many States that do far less for 
young children than North Carolina does.
    And so in States that don't have any form of publicly 
funded pre-K, Head Start is crucial as the primary and 
sometimes sole program serving our poorest children who are at 
most risk of school failure later in life. And that is an 
absolutely crucial role.
    Mr. Nolan. And a quick comment on that. One of the pluses 
of Federal Head Start is it has been relevant stable over time. 
And State funding tends to be quite more volatile. So you had 
Ohio that went up to $100 million invested in Head Start aged 
kids. And it went down to zero. So I think one of the things is 
that stability.
    Ms. Adams. Okay. Thank you for that. As a follow-up, would 
you say that the reduced spending has had a negative effect on 
Head Start programs? Ms. Mead? Mr. Nolan? Any of the witnesses?
    Mr. Nolan. Well, we're struggling because obviously we've 
had years where we can't even give a cost of living increase to 
staff. When we had one, it was .72 percent, which is almost an 
embarrassment. So, trying to retain staff is a difficult thing. 
And as we keep having higher and higher standards, my teachers 
are 4-year degree teachers who can go elsewhere for $20,000 to 
$30,000.
    In all of my management staff of six people, we have seven 
master's and a PhD across there. We're here because we're part 
of the investment. And we talk about the cost of Head Start, 
some of that is paid on the backs of our vast number of 
underpaid staff.
    So I think we've got to look for the long term how do we 
make progress with that. But right now, people stay kind of 
because of their passion and values. If you're into big bucks, 
you don't come to Head Start to work.
    Ms. Adams. Thank you. Would anybody else like to respond? 
Okay. Thank you, Mr. Chair. I yield back.
    Chairman Kline. I thank the gentlelady. Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman. And thank you all for 
what you do for our young people and our children.
    You know, we all agree that it's critical, development 
occurs in the early childhood. And we can't underestimate the 
value of loving, safe, and nurturing homes which is so 
critical. I have visited many of the childhood Head Start 
programs in our district. And I'm fascinated by the care and 
love and attention that the children are getting. In fact, to 
the extent that, in some cases, you almost don't want to let 
these children go home because it's not exactly that way at 
home.
    You know, my concern is what has, I mean obviously, the 
numbers are growing in Head Start, at least in our State and in 
my district. I mean, the need is there. And it's ever 
increasing. And, of course, we all, I think, would agree that 
Head Start is needed because the child is not getting its needs 
met at home.
    Have you thought about how to change that cycle? I mean, 
obviously, Head Start could take over and be the family needed. 
But that creates cost. And it creates other problems. How do we 
change this cycle?
    Mr. Nolan. I mean, one of the things that I would encourage 
you to think about, we've not talked a whole lot about Early 
Head Start other than to identify that program for pregnant 
moms, infants, and toddlers up to age 3 has only got 5 percent 
coverage at this point in terms of who we can serve.
    One of the things that we work very hard in my program, 
come back to my on-the-ground experience, we have a home-based 
Early Head Start where we go into the home and work with 
parents. Basically, we enroll the parent who happens to have 
either a pregnancy, infant, or toddler in their lives and work 
with them to build their capacity. We do not want to become the 
substitute. What we want to do is build capacity in that parent 
to be the best, most deliberate nurturer of that young child's 
life.
    And I think the more we do that--so more investment in 
Early Head Start, continued investment because part of what 
we're looking at in this proposed rulemaking, if we pulled back 
on parent services at the same time that we want to propose 
deepening them, that's not the right direction.
    Another issue that the chairman raised in his introduction 
was we're running a risk right now under noticed proposed 
rulemaking of losing between 125,000 and 145,000 slots at a 
point where that becomes one of the most incredibly expensive 
ways to fund quality improvement. And we must have quality 
improvement. We can't do it by serving vast numbers of fewer 
children.
    Mr. Allen. It seems to be a problem with motivation as 
well. In other words, you know, when I grew up, poverty was a 
motivation to work hard, to find a skill, to get a good 
education. And the motivation is somehow missing today. Poverty 
is, sometimes is a choice. And it runs cycle to cycle and 
generation to generation. And, you know, like I said, these 
programs are great.
    But at some point in time, how do we figure out how to 
motivate, and you're looking at the thorn of ages here. How do 
we psychologically motivate these folks to say you know what, I 
can do better than this. We have got a lot of examples in this 
Nation of people who have come out of extreme, very difficult 
circumstances.
    Mr. Nolan. Yes. And that's an area where we need to be very 
deliberately working harder. One of the things that Dr. Biel 
will, I'm sure, confirm is, many of the families that we're 
dealing with--we're dealing with high percentages of 
depression. The gap for some of these parents from where they 
are to independence is huge. We need to put more energy into 
that.
    I can't motivate anybody. But I can create conditions that 
enable them to be motivated. And we see that when they start to 
get, we have a program that we call Soaring, which is a self-
esteem building program that never says the word self-esteem 
for 8 weeks. But people going through that emerge with a 
project. And they start to get a project mentality and a sense 
of possibility. And the parents don't have the models they 
need. We need to help the parents become the models that their 
children need.
    Mr. Allen. Thank you very much. I yield back.
    Chairman Kline. The gentleman's time has expired. Mr. 
Jeffries.
    Mr. Jeffries. Thank you, Mr. Chair. And I want to thank the 
witnesses for your presence here today and, of course, the work 
that you do.
    Dr. Nolan, you mentioned that there are four sort of 
evaluation points along the continuum with respect to Head 
Start participants, I gather the moment you arrive in Head 
Start, the moment you depart, your elementary school 
experience, and then lifetime results. Is that correct?
    Mr. Nolan. Yes.
    Mr. Jeffries. And of those four points along the continuum, 
would you agree that whether there's been an impact over the 
course of your life in terms of outcome, that's the most 
important factor as to whether the investment in Head Start has 
yielded a return?
    Mr. Nolan. Yes.
    Mr. Jeffries. And you referenced the Heckman study. And I 
believe Dr. Biel also referenced it. And there was some 
question as to whether, you know, the study was, I guess, 
legitimate in terms of how it was conducted and whether there 
was some reliability as it relates to the results.
    And so I just wanted to ask a few questions about that now. 
Now, it was a longitudinal study, in other words, it covered a 
period of multiple decades in terms of--
    Mr. Nolan. Actually continuing too.
    Mr. Jeffries. And it's continuing. And was that, is it a 
quantitative study or was it a qualitative study?
    Mr. Nolan. Yes. I mean, at some level or another, the 
measures tend to be countable things like incarceration, et 
cetera.
    One of the things that we're faced with, and it's true for 
everything that this committee addresses, we tend to measure 
that which is easiest to measure, as opposed to that which is 
most important. So it's harder for us to look at, for instance, 
Mr. Allen's comment around motivation. It's hard to measure 
motivation. So you try to convert that to the accomplishment of 
landing and retaining a job. So you go to those kinds of 
measures.
    Mr. Jeffries. Would you say in the academic context the 
results are widely accepted as statistically significant?
    Ms. Mead. Can I address this in a slightly different way? 
On that, the body of evidence for the effectiveness of high-
quality early childhood education, is probably the most robust 
body of evidence for anything we do in education. We know more 
about it than we do about high school, elementary school, and 
so forth.
    And that evidence comes from a variety of sources. It comes 
from what we know about child development, the type of work 
that Dr. Biel was talking about and does. It comes from studies 
that were started in the 1960s with small scale model programs 
with a very high quality randomized design and continue to 
follow those people into adulthood today.
    It also comes from big population studies where they 
compared people after the fact who'd attended Head Start to 
other folks and found improvements in life outcomes you know, 
in 40s and 50s and later.
    And it comes most recently from the body of studies that we 
have on high-quality State-funded pre-K programs where we're 
now seeing those programs produce results for kids at scale 
that lead to meaningful changes in their outcomes through the 
elementary school grades. We have to look at the evidence on 
Head Start next to and against that entire body of evidence 
about early childhood education. And the conclusion that we can 
draw from that is that Head Start makes a difference in both 
skills at kindergarten entry and adult life outcomes, but that 
it's not producing the magnitude of gains that kindergarten 
entry of the very highest quality pre-K programs.
    And, as a result, we are not seeing the level of changes 
once kids progress through elementary school that we would like 
see. But because we're seeing other programs do it and because 
we're seeing the best Head Start programs do it, we know it's 
possible. We just need to figure out how to get there.
    Mr. Jeffries. Okay. And, Dr. Biel, in terms of sort of 
those life outcomes that the literature seems to suggest 
clearly lead to positive results for Head Start participants, 
if we could just kind of quantify that based on, I guess, the 
Heckman study or any other study that has been done.
    So is it fair to say that participation in Head Start 
generally yields a reduction in the likelihood of 
incarceration?
    Dr. Biel. Yes. And just a note about Dr. Heckman's 
methodology. He won a Nobel Prize in economics. He's a very, 
very rigorous researcher. And his methods are fairly 
unassailable. The sample size is small because, as Dr. Nolan 
pointed out, these are 40-year studies. It's hard to follow a 
large group of kids for that long, as they become, as they go 
into middle age. But the methods are quite strong. And 
incarceration is one of the outcomes, yes.
    Mr. Jeffries. So reduction in the likelihood of 
incarceration. Would reduction in the likelihood of teen 
pregnancy also be a result of participation in Head Start?
    Dr. Biel. Yes. Potentially. Dr. Heckman's studies do, I'm 
sorry to interrupt. Followed several model early childhood 
programs that share an enormous amount in common with the best 
Head Start programs.
    Mr. Jeffries. Okay. And, lastly, would reduction in 
dependency on government benefits through adulthood also be a 
result of participation in a high quality Head Start program?
    Dr. Biel. I think absolutely, yes.
    Mr. Jeffries. Thank you. I yield back.
    Chairman Kline. The gentleman's time has expired. Dr. Roe.
    Mr. Roe. Thank you. I'm sorry I was late, I was over fixing 
the VA this morning, probably unsuccessfully.
    I want to thank you all for your investment in the most 
important resource we have which is the future of this country 
which are our children. No question about it.
    And I know, Dr. Biel, you stated in your paper, and I did 
read all of your testimony, while Head Start providers are 
important, contributors to a child's health and development, 
the family is the first and most consistent influence. And 
schools are part time, families are all the time.
    And I have a next door neighbor, that I'm going to share 
with you for just a second, who is a principal of an elementary 
school, 70, 80 percent free and reduced lunch. I saw her show 
up one day with four kids, four Hispanic children, from about 4 
to 9 or 10 next door. I said Sharon, what are you up to?
    Well, the mother had six children. They were all behind. 
They were about to go into State custody. And my next door 
neighbor took these four children in and began to nurture them. 
I've watched that over the last 1 year. Those children with 
proper parenting have made up two grades in school. It is 
absolutely amazing to see what that type of influence can make.
    And I think one of the things, Dr. Nolan, you brought up 
earlier, we've all had the question did the outcomes, if you go 
to Head Start, why do the benefits seem to evaporate? And the 
findings of the recent Vanderbilt study in the Tennessee pre-K 
program were similar to the Head Start impact studies. They 
show evidence of important initial gains in several critical 
aspects of child development, but that such gains may not be 
sustained through the third grade.
    Well, I dug a little deeper. And if you look at a low-
income child versus a high-income child, by the time they've 
hit pre-K, they've heard, the high-income child has heard 30 
million more words probably. And so they're at a language 
disadvantage. If you take that child, as Dr. Nolan said, who's 
in a high performing Head Start program, is doing very well 
when they leave. They all go to school. And they all have a 
summer break. And if you look at the reading skills of a 
child--when a low-income child, when they exit summer, they 
lose a month of reading.
    And so no matter what you do in pre-K, by the time they're 
in the 4th, 5th, 6th, 7th grade, they're a year behind. And 
many of them drop out of school. So I think that upstream 
there's no question that there's some benefit there. I think 
you can improve. The question is how do you sustain any 
benefits that you have? I think that's what I heard you all 
say.
    And I guess the recent NPRM seeks to make Head Start, I 
want to answer this question, more like a pre-K program. Given 
this recent study, why would we seek to make Head Start more 
like a pre-K program? Isn't the inherent design of Head Start 
that it's tailored to meet individual and comprehensive needs 
of each child? Anybody could take that on.
    Mr. Nolan. I would love to jump in on that. Wisconsin is 
the national poster child on 4-year-old kindergarten. It's been 
in our constitution since 1848. The 4K program that my 
grandsons went to is 102 years old. And 4-year-old kindergarten 
varies dramatically. But in most cases, it's still mostly like 
5-year-old kindergarten. In Head Start, we have a max group 
size of 20 kids, two to three adults working in that room with 
those kids. Down the street, in our large urban district in 
Milwaukee, we have classrooms with between 28 and 32 kids, 4-
year-old, for 5 hours with one teacher.
    And at some point or another, whoever has decided that 
that's a more desirable model for Head Start eligible kids 
really doesn't understand how kids learn. And I think part of 
what we've got to be very careful of is how do we take best 
practices and extend those forward in terms of a child's 
learning, not just for Head Start but for all children.
    Ms. Mead. I also think it's important not to view the 
results that were released recently from Tennessee as 
representative of everything we know about State pre-K 
programs. We have seen positive results from programs in New 
Jersey, Oklahoma, Georgia, North Carolina that are in many 
cases sustained over time. So it's not the case--
    Mr. Roe. Not to interrupt, this was a, I've spoken to the 
author of this. This is a Vanderbilt study.
    Ms. Mead. And I'm a Vanderbilt alum.
    Mr. Roe. They might take umbrage with that. They felt like 
they did a rigorous study.
    Ms. Mead. I am not questioning that they did a rigorous 
study. But it's one piece of evidence. And so it doesn't 
reflect all State pre-K programs. There's variation across 
State pre-K programs. And we need to learn from that. We cannot 
conclude, based on this one study, that State pre-K programs 
never work. In fact, we have a lot of evidence that they do in 
the right context.
    Mr. Roe. Okay. Mr. Chairman, I yield back.
    Chairman Kline. The gentleman yields back. We don't often 
get a prestigious institution like Vanderbilt brought on the 
carpet like this; this has been very interesting. Mr. Rokita, 
you're recognized.
    Mr. Rokita. Thank you, Chairman. Thank you for hosting this 
hearing.
    As we look ahead to reauthorizing Head Start and writing 
language, et cetera, to that end and as chairman of the 
Kindergarten through 12th Grade Education Subcommittee on this 
committee, I'm going to get a little bit wonky. Ms. Sanchez 
Fuentes, if you don't mind, for a minute. During your time at 
the Department, you oversaw the creation of the DRS, the 
Designation Renewal System, developed because of a requirement 
that the reauthorization of 2007 put in.
    And I wasn't here to hear your testimony, so I apologize if 
you covered this. But I would like to hear from you whether you 
believe this recompetition has been effective. Has it enhanced 
the program integrity, increased competition, and improved 
quality of providers?
    Ms. Sanchez Fuentes. Yeah. Thank you. Thank you for the 
question. I actually haven't talked about it.
    So I would say that, yes, it absolutely did increase 
quality over time. We do have programs who I think probably 
wouldn't have taken a second look. Say I'm going to take a 
second look, at what I'm doing and think about how I can do 
things better and more efficiently.
    In terms of, and I think Dr. Nolan talked about this a 
little, there are some things to reconsider with regards to the 
Designation Renewal System. And I would encourage Congress to 
think about what the next steps are for the next iteration.
    But I would emphasize that competition is important. It has 
forced Head Start programs across the country to think about 
what they're doing and also to be able to talk about what 
they're doing. So what are the things that they're doing that 
are making a difference for the kids and the families in their 
community.
    Mr. Rokita. What specifically what would you like to see in 
your dream DRS?
    Ms. Sanchez Fuentes. In my dream? So I don't have the 
answer to that. I actually, sir, have been thinking about that 
probably for two years. But I would definitely say that we need 
to rethink what those triggers are. I will, say very honestly, 
that we did the best that we could at the time with the 
information. We have learned some things over the last three 
iterations of competition. I think they're on their fourth now.
    And it's time to take a look at the data. So who did well, 
why, who are the new players who have come into Head Start and 
why, and open it up, think about what the triggers are, think 
about who should go into competition.
    Mr. Rokita. Okay. Thank you. Any other of the members of 
the panel wish to comment on my question? No. Okay.
    Dr. Nolan, I was told about an exchange between you and Ms. 
Foxx here on the committee about how we should be judged, on 
short term versus long term. And I heard that was quite good. 
I'm not sure if other members of the panel got to comment on 
that though. Does anyone else want to comment on how we should 
be judging this program? Should it be in the short term or the 
long term?
    Dr. Biel. Thank you. I'll just say briefly that I think it 
actually should be both and that we should think about, I guess 
this picks up on some of the earlier questions as well, we 
should think about really high-quality early childhood 
education as an onramp.
    It's not an inoculation against all the future difficulties 
that kids may run up against either in the educational system 
or in other aspects of their lives.
    Dr. Biel. But it's a really, really critical onramp, and so 
the short-term measurements are really important. And what 
could be important than the long-term measurements that we were 
discussing a minute ago?
    Mr. Rokita. All right. Thank you.
    Mr. Nolan. And at a program level, we're measuring 
constantly. We're using data. One of the early pieces of 
testimony was around the necessary use of data. I mean, we're 
using data to inform our practice on a constant basis. And I 
absolutely agree with Dr. Biel, it should be all of the above. 
And we need to get better at measuring how our expenditures 
become investments.
    Mr. Rokita. I thank the panel.
    I thank the chair.
    Chairman Kline. The gentleman yields back. It looks like 
everyone has had a chance to ask questions.
    Let me recognize Mr. Scott for his closing comments.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    I think we've heard a lot of very good testimony, and I 
want to thank our witnesses. This has been extremely helpful. 
We have, I think, a consensus that Head Start works, that the 
long-term benefits are there, and that the return on investment 
by reduced incarceration, reduced teen pregnancy, reduced 
remedial education, those reduced costs are a lot more than the 
cost of the Head Start program.
    There has been a little discussion about the fading 
results, but I think the long-term results are clearly there, 
and some of the fade could be the summer slide that Head Start 
can't cure or poor follow-up in elementary school or other 
students just catching up. When you see the other students 
doing well, they have an incentive to catch up.
    But I think by any stretch of the imagination, all of our 
witnesses, invited by Democrats and Republicans, have 
unanimously endorsed the long-term benefits of the Head Start 
program. And so there appears to be good bipartisan support for 
the program.
    And, Mr. Chairman, I look forward to working with you as we 
reauthorize this very successful program.
    Chairman Kline. I thank the gentleman.
    I want to thank the witnesses. I agree with my friend and 
colleague, Mr. Scott, very excellent panel. You are indeed 
experts. You've helped us a lot.
    I think there is agreement, probably, I don't know if it's 
100 percent, but very bipartisan agreement that Head Start is a 
very, very important program for underprivileged, for poor 
kids. We want to see it succeed.
    There are differences, and we heard about those here today, 
where there are some pre-K programs that are doing very, very 
well and some not so well, in and out of Head Start, because 
some Head Start programs are doing really well and some maybe 
not so well. We've heard about the success of competition, and 
we may want to look at how to make that more successful.
    So we've got a lot of work to do here, but the panel has 
been very, very helpful. I want to thank you for your testimony 
and for your active and lively engagement. And I'm sorry about 
Vanderbilt.
    There being no other business, the committee is adjourned.
    [Additional submissions by Mr. Nolan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [Whereupon, at 12:05 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
